<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              


                        WEDNESDAY, MAY 10, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senator Stevens, Cochran, Shelby, Burns, and 
Inouye.

                         DEPARTMENT OF DEFENSE

                         Missile Defense Agency

STATEMENT OF LIEUTENANT GENERAL HENRY A. ``TREY'' 
            OBERING III, UNITED STATES AIR FORCE, 
            DIRECTOR

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. We're pleased to have Lieutenant General 
Henry Obering, Director of the Missile Defense Agency (MDA), 
and Lieutenant General Larry Dodgen, Commander of the U.S. Army 
Space and Missile Defense Command, U.S. Army Forces Strategic 
Command, and the Joint Functional Component of the Command 
Integrated Missile Defense (IMD).
    General Obering, given your service at the Missile Defense 
Agency for the last 2 years, we have been acquainted with you 
and your role, and appreciate your service as Director of the 
Missile Defense Agency.
    General Dodgen, we thank you, again, for coming to appear 
before the subcommittee, and recognize your multiple command 
roles and responsibilities.
    Since I am late, I am going to put the balance of my 
statement in the record. I would also like to include the 
statement for Senator Cochran in the record as well.
    [The statements follow:]

               Prepared Statement of Senator Ted Stevens

    The committee is pleased to welcome Lieutenant General 
Henry Obering, Director of the Missile Defense Agency and 
Lieutenant General Larry Dodgen, Commander, U.S. Army Space and 
Missile Defense Command, U.S. Army Forces Strategic Command, 
and Joint Functional Component Command--Integrated Missile 
Defense.
    General Obering, given your service at the Missile Defense 
Agency for almost two years, we are acquainted with you and 
your role as Director of the Missile Defense Agency.
    General Dodgen, thank you for testifying again before this 
committee and we recognize your multiple command roles and 
responsibilities and look forward to hearing your statement 
today.
    We thank the both of you for being here today.
    In the face of a growing threat, ballistic missile defense 
is one of the most challenging missions in the Department of 
Defense. Recognizing the strategic importance of this mission 
to the United States, this committee has consistently provided 
resources for missile defense programs. Unfortunately, we as a 
nation face multiple threats with limited resources, forcing 
this committee to make tough choices with respect to our 
defense priorities. This committee seeks to ensure that our 
nations limited resources are tightly focused, on countering 
the most important threats.
    General Dodgen and General Obering, we look forward to 
hearing about the current status of our missile defense 
capabilities and how the program is proceeding. We will make 
your full statement a part of the committee's record. Before we 
begin, let me turn to Senator Inouye, my vice chairman, for his 
opening remark.
                                ------                                


               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I join you in welcoming our witnesses today. 
Given the development of missile programs around the world and 
the nuclear development efforts by North Korea and Iran, the 
importance of maintaining a strong missile defense program 
cannot be overstated. Our nation needs to continue to develop 
and deploy a missile defense capability.
    I look forward to your testimony about the capabilities on 
which you are working. I appreciate your service, and offer you 
my support toward achieving a layered system capable of 
defending our nation, our deployed forces, and our allies 
against the full range of missile threats.

    Senator Stevens. But I do want to tell you, we do look 
forward to hearing from you about the status of our missile 
defense capabilities. I enjoyed very much the event out at 
Vandenberg, where we did commit part of that base to the 
National Missile Defense Command. And I look forward to hearing 
more from you about the future of that command.
    Senator Inouye.
    Senator Inouye. Well, I thank you very much, Mr. Chairman. 
I'll follow your leadership, and may I ask that my statement be 
made part of the record.
    Senator Stevens. Without objection, we'll put your full 
statement in the record.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Today I am pleased to join our Chairman in welcoming to the 
committee Lieutenant General Obering and Lieutenant General 
Dodgen to discuss the fiscal year 2007 budget request for 
missile defense.
    Gentlemen, it has been nearly two years since the President 
directed the Department of Defense to field an initial missile 
defense capability. We have been investing close to $10 billion 
annually on missile defense to reach that goal, and while there 
have been multiple successes for the system, we still do not 
have any of the ``shoot-down'' systems on alert.
    We have placed significant resources and time in the 
ground-based missile defense system, the Aegis system, and in 
programs such as Airborne Laser and Theater High Altitude Area 
Defense. This Committee wants to see these programs succeed. 
However, each year as we review the budget request, it seems 
that the Missile Defense Agency is investing more of its 
resources on new research activities, instead of focusing on 
getting an operational capability out of the core programs I 
just mentioned.
    Gentlemen, I know that you are committed to proving that 
the missile defense system works and that it is fielded and 
fully operational. I am confident that you have the best 
intentions when you invest in new research programs. However, I 
am concerned that we might not be able to continue the current 
rate of spending on missile defense into the future. As such, I 
want to be sure that the systems we have been investing in so 
heavily are deployed and that their funding is not curtailed to 
pay for new programs.
    I thank you both for appearing before the Committee. I hope 
you will address this concern today during our discussions, and 
I look forward to hearing your remarks.

    Senator Stevens. And we'll put the statement of each of you 
in the record in full, as though read.
    Senator Shelby, do you have any comments?
    Senator Shelby. Mr. Chairman, I look forward to both 
generals' testimony here today.
    Thank you.
    Senator Stevens. Senator Burns, do you have a comment?
    Senator Burns. I have a statement, and I'd put that in the 
record, looking forward to their testimony today. And it's a 
short one, so I think we get on with the business at hand.
    Senator Stevens. Yes, sir.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    Mr. Chairman, Lieutenant General Obering, Lieutenant 
General Dodgen. I would like to welcome you and let you know 
that we appreciate your professional service to our nation.
    We also appreciate your efforts to field a ballistic 
missile defense system. Your labors are the continuation of 
years of research and development that began with the Strategic 
Defense Initiative under President Reagan. When SDI was 
introduced over 20 years ago there were many doubters who 
dubbed the program ``Star Wars''. In the due course of time 
those doubters were proven to be on the wrong side of history. 
As it turned out SDI was a definitive factor in breaking the 
back of our Soviet enemies. As we have seen, many of the 
technologies that resulted from this effort have seen uses that 
no one could have predicted. The development and fielding of 
the Patriot missile is one example of how missile defense 
technology is critical to our Armed Forces. The Patriot PAC-3 
is now the most mature and effective system in our missile 
defense arsenal.
    Today we have a new enemy, and our efforts need to be 
geared toward facing that enemy in the war that we are now 
engaged in. Missile defense is an important element of 
protecting our forces that are forward deployed. The spiral 
development of Patriot PAC-3 on the land, and the Navy Standard 
SM-3 missile paired with new long range radars are two examples 
of technology that can be used in any theater around the world, 
or re-deployed back to the United States for homeland defense. 
These tactical systems now have strategic capabilities.
    Although, I understand the importance of developing missile 
defense technology I have concerns that your agency is juggling 
too many programs; and the result is that we are paying for 
parallel programs with some redundancies. I look forward to 
hearing your views about the integration of your programs, and 
your plan for making the most of our tight budget while we are 
fighting the global war on terror.

    Senator Stevens. Generals, we put a high value on your 
activities. And I must say that the progress that's being made 
is very enlightening, very welcome. So, we look forward to your 
statement.
    General Obering.
    General Obering. Well, thank you. Good morning, Mr. 
Chairman, Senator Inouye, and distinguished members of the 
subcommittee. It's an honor to be here today.
    This morning, I'll review the progress that we've made in 
fielding and developing a missile defense capability, our plans 
for 2007, and our test program.
    We structured the Missile Defense Program to meet the 
current and evolving ballistic missile threats by balancing 
early fielding with steady system improvements over time. We're 
requesting $9.3 billion to support our very intense program of 
work in 2007. About $2.4 billion will cover the fielding and 
sustainment of the system components. And about $6.9 billion 
will be invested in further development and continued testing.
    Since I last addressed you, we've made good progress in 
developing and fielding an integrated layered defense for the 
United States, our deployed forces, allies, and friends, 
against ballistic missiles of all ranges and all phases of 
flight. This is especially true in our long-range defense 
component.
    Last year, following the two test aborts, I chartered an 
independent review of the Ground-based Midcourse Defense (GMD) 
Program. The independent review team concluded that we were on 
the right track, but needed to make adjustments in our quality 
control, system engineering, and test readiness. I established 
a mission readiness task force to follow through on these 
adjustments, and delayed the interceptor deployment in 2005 
until we were satisfied with that progress. We are finishing 
the additional recommended qualification tests and have 
implemented much stronger engineering accountability, 
configuration management, and mission assurance processes.
    We've had a very successful flight test of our 
operationally configured long-range interceptor in December, 
and a very successful flight test generating intercept 
solutions from our Cobra Dane and Beale radars and their 
operational configurations, as well. These comprehensive 
reviews and our recent successes indicate that we should 
continue interceptor deployment. But I will pause again, if 
necessary.
    We recently emplaced three more ground-based interceptors 
in Alaska, and plan to have a total of 16 at sites in Alaska 
and California by December. Current plans support emplacement 
of 22 interceptors by the end of 2007, and the fielding of 10 
interceptors to a European missile field by 2011, which will 
expand our total available long-range inventory to over 50.
    Sensors are the eyes of this system. They detect, track, 
and discriminate threatening objects and provide critical cuing 
information to the system. In addition to the Cobra Dane and 
the Beale radars that I mentioned earlier, this year we 
completed construction of the very powerful sea-based X-band 
radar and began integrating it into the system. It is now 
undergoing tests near Hawaii and will depart this summer for 
Alaska. We are also deploying the first transportable forward-
based X-band radar to our very important ally, Japan, where it 
will support both regional and homeland defense. In the United 
Kingdom, we expect the upgraded Fylingdales radar to achieve 
its initial capability this year, and in 2007 we will deliver a 
second forward-based X-band radar and initiate a major upgrade 
of the Thule radar in Greenland.
    By placing a third long-range interceptor field in Europe 
along with forward-based sensors in the region, we will meet 
two major objectives laid out by the President: Improved 
coverage of the United States and greatly improved protection 
of our allies and friends in Europe against a Middle East 
threat.
    The command, control, battle management, and communications 
infrastructure is the heart, soul and brain of our defensive 
capability. Without it, we simply couldn't execute the mission. 
It is a true force multiplier for missile defense. The global 
command and control foundation that we've established is 
unmatched in the world. We need to expand this effort to enable 
the integrated fire control which will allow us to mix and 
match sensors and weapons, greatly increasing our capability.
    Our aegis ships provide a flexible intercept capability 
against the shorter range ballistic missiles, as well as the 
long-range surveillance and track support to the system. This 
past year, we added 6 more surveillance and track destroyers, 
for a total of 11, and another engagement cruiser, for a total 
of two. By the end of 2007, we expect to have 10 engagement 
ships available, with 33 interceptors delivered.
    We also have an aggressive development program of work. In 
our terminal high altitude area defense, or THAAD, component, 
we are coming off a very successful test flight last November 
and are on track to field an initial capability against the 
short- to medium-range threats in 2008. To lay the foundation 
for global capability to meet future emerging threats, we plan 
to launch two space-tracking and surveillance system 
demonstration satellites in 2007, as well.
    And in our very challenging boost-phase defense area, the 
airborne laser reached all of its knowledge points last year 
when it achieved a full-duration laser at operational power and 
completed the initial beam-control/fire-control flight tests. 
Currently, we're installing the tracking and atmospheric 
compensation lasers and preparing the aircraft to accept the 
high-power laser modules in 2007.
    In our other boost-phase development activity, the kinetic 
energy interceptor (KEI), we are focused on demonstrating a 
mobile, very high acceleration booster that could give us 
improved capabilities to engage targets in the boost, 
midcourse, and terminal phases of flight. We've had a number of 
test successes and project the first flight of this interceptor 
in 2008. And with our multiple kill vehicle (MKV) system 
development, we will bolster long-range defenses by improving 
our abilities to engage multiple targets with a single 
interceptor.
    Now let me quickly turn to testing. The test schedule for 
this year and next continues at a rigorous pace. We will 
conduct 38 major system tests in 2006 and 37 major system tests 
in 2007. We plan two to three more long-range flight tests this 
year, including intercepts, two intercept flight tests of our 
aegis standard missile-3, and four flight tests of the terminal 
high altitude area defense interceptor.

                           PREPARED STATEMENT

    Mr. Chairman, we certainly have our challenges, but I 
believe the program is on track. The successes that we've had 
over the past year bear this out. I greatly appreciate this 
subcommittee's continued support and patience, and I want to 
thank the thousands of Americans and our allies, both in 
Government and industry, who are working hard to make missile 
defense a success.
    Thank you, and I look forward to your questions.
    Senator Stevens. Thank you, General.
    [The statement follows:]

     Prepared Statement of Lieutenant General Henry A. Obering III

    Good morning, Chairman Stevens, Senator Inouye, distinguished 
Members of the Committee. It is an honor to be here today to present 
the Department of Defense's fiscal year 2007 Missile Defense program 
and budget. The Missile Defense Agency mission remains one of 
developing and progressively fielding a joint, integrated, and 
multilayered Ballistic Missile Defense (BMD) system to defend the 
United States, our deployed forces, and our allies and friends against 
ballistic missiles of all ranges by engaging them in all phases of 
flight. I believe we are on the right track to deliver the 
multilayered, integrated capabilities that are necessary to counter 
current and emerging threats.
    As was the case last year, our program is structured to balance the 
initial fielding of system elements with steady improvements using 
evolutionary development and a test approach that continuously 
increases our confidence in the effectiveness of the BMD system. This 
budget balances our capabilities across an evolving threat spectrum 
that includes rogue nations with increasing ballistic missile 
expertise.
    We are requesting $9.3 billion to support our program of work in 
fiscal year 2007. The $1.6 billion increase from 2006 reflects a return 
to the annual investment level targeted by the Department for ballistic 
missile defense and is indicative of the robust phase we are entering 
in the development and fielding of the integrated layered capability. 
Approximately $1 billion of this increase will be applied to fielding 
and sustainment, and $600 million to continued development of the 
Ballistic Missile Defense System. $2.4 billion of the fiscal year 2007 
request covers the continued incremental fielding and sustainment of 
long-range ground-based midcourse defense components; our short- to 
intermediate-range defense involving Aegis ships with their 
interceptors; and the supporting sensors, command, control, battle 
management and communication capabilities. This increase in funding for 
fielding and sustainment of nearly a billion dollars from last year 
reflects the success we have had across the program. About $6.9 billion 
will be invested in continued component improvements, system capability 
development, and testing.
    I would like to review our accomplishments, as well as our 
shortfalls, over the past year, explain our testing and fielding 
strategies, and address the next steps in our evolutionary ballistic 
missile defense program.

                     EVOLVING SECURITY ENVIRONMENT

    Proliferating and evolving ballistic missile systems and associated 
technologies continue to pose dangers to our national security. In 2005 
there were nearly eighty foreign ballistic missile launches around the 
world. Nearly sixty launches last year involved short-range ballistic 
missiles, approximately ten involved medium- and intermediate-range 
missiles, and about ten involved long-range ballistic missiles.
    North Korea and Iran have not relented in their pursuit of longer-
range ballistic missiles. Our current and near-term missile defense 
fielding activities are a direct response to these dangers. There are 
also other ballistic missile threats today for which we must be 
prepared, and there will be others in the mid- to far-term. We must be 
ready to operate the ballistic missile defense system against new and 
unexpected threats.
    Our potential adversaries continue efforts to acquire ballistic 
missile systems and technology. Ballistic missiles were used against 
our forces, our allies and friends during the 1991 and 2003 Gulf Wars. 
When combined with weapons of mass destruction, they could offer our 
enemies an attractive counterbalance to the overwhelming conventional 
superiority exhibited by U.S. and coalition forces during those wars. 
We can expect that in the future our adversaries could use them to 
threaten our foreign policy objectives or pursue a policy of terrorism 
by holding our cities and other high value assets hostage. After all, 
those who support global terrorism can hide behind the threats posed by 
offensive missiles carrying highly destructive or lethal payloads. They 
will use them to try to deny our forces access to a theater of conflict 
or to coerce a withdrawal of our forces from that theater. Ballistic 
missiles provide a way for our adversaries to attempt to achieve some 
degree of strategic equality with us, especially at a time when 
ballistic missile defense is still striving to catch up with the 
progress made by ballistic missile offense over the past four decades.

               MISSILE DEFENSE APPROACH--LAYERED DEFENSE

    We believe that layered defenses integrated by a robust command and 
control system, will improve the chances of engaging and destroying a 
ballistic missile and its payload in-flight. This approach to missile 
defense also makes the effectiveness of countermeasures much more 
difficult, since countermeasures designed to work in one phase of 
flight are not likely to work in another. It is much harder to overcome 
a complex, multilayered defense. Layered defenses, a time-honored U.S. 
approach to military operations, provide defense in depth and create 
synergistic effects designed to frustrate an attack.
    With the initial fielding in 2004 of the Ground-based Midcourse 
Defense components, the Aegis long range surveillance and track ships, 
and the first integrated command, control, battle management and 
communications (C2BMC) suites, we made history by establishing a 
limited defensive capability for the United States against a possible 
long-range ballistic missile attack from North Korea and the Middle 
East. With the cooperation of our allies and friends, we plan to evolve 
this defensive capability to make it more effective against all ranges 
of threats in all phases of flight and expand the system over time with 
additional interceptors, sensors, and layers.
    Since we cannot be certain which specific ballistic missile threats 
we will face in the future, or from where those threats will originate, 
our long-term strategy is to strengthen and maximize the flexibility of 
our missile defense capabilities. As we proceed with this program into 
the next decade, we will move towards a missile defense force structure 
that features greater sensor redundancy and sensitivity, interceptor 
capability and mobility, and increasingly robust C2BMC capabilities. In 
line with our multilayer approach, we will expand terminal defense 
protection and place increasing emphasis on boost phase defenses.
    We are effectively employing an evolutionary acquisition strategy 
to field multiple system capabilities while maintaining an aggressive 
test and development program. The Missile Defense Agency continues to 
evolve and refine desired capabilities, based on warfighter need and 
technology maturity, through sound risk management. Our goal continues 
to be one of fielding the best capabilities possible, on schedule, on 
time, and within cost, in order to address current and emerging 
threats.

                 COMPLETING THE FIELDING OF BLOCK 2004

    Since I last appeared before this committee, we have made a number 
of significant accomplishments to complete initial fielding of the 
Block 2004 capability. We have also fallen short in some areas. When we 
rolled this program out in 2002, we set out to deploy 10 Ground Based 
Interceptors in 2004 and another 10 in 2005. A booster motor plant 
explosion in 2003, which had a major impact across the missile defense 
program, and the need to step back and undertake a mission readiness 
review of the Ground-based Midcourse Defense program following two test 
failures caused us to miss our fielding mark. I delayed the Ground-
Based Interceptor deployment in 2005 and made changes based on the 
recommendations of the mission readiness review. I believe we are now 
back on track, but I will pause again if necessary. We recently 
emplaced three more Ground-Based Interceptors in silos at Fort Greely, 
Alaska, for a total of nine, and two at Vandenberg Air Force Base in 
California. This progress is critical because we expect the Ground-
based Midcourse Defense element to be the backbone of our national 
missile defense capability for years to come. Today we continue with 
interceptor fielding and plan to emplace additional Ground-Based 
Interceptors, for a total of sixteen by December of this year.
    This past year we also added a second Aegis engagement cruiser and 
delivered additional Standard Missile-3 interceptors to our evolving 
sea-based architecture to address short- and medium-range threats in 
the midcourse phase of flight. We did not advance as rapidly as we 
hoped. We needed to resolve technical issues associated with the third 
stage rocket motor and the solid divert and attitude control system to 
take full advantage of interceptor performance designed to pace the 
threat. However, we are close to the 10 to 20 sea-based interceptors we 
projected for delivery in our initial program. Right now, I am 
comfortable with where we stand in our sea-based interceptor deployment 
plans. We will continue to grow our inventory of Standard Missile-3 
interceptors for deployment aboard Aegis ships and, by the end of 2006, 
outfit three Aegis destroyers and one additional cruiser with this 
engagement capability. So, in addition to providing surveillance and 
tracking support to the integrated ballistic missile defense system, 
Aegis provides a flexible sea-mobile capability to defeat short- to 
intermediate-range ballistic missiles in the midcourse phase.
    In our sensors program, we upgraded the Beale Early Warning Radar 
in California. The Beale radar complements and works synergistically 
with the surveillance and tracking capabilities of the fully 
operational Cobra Dane radar in Alaska, and together they will help us 
defend against the longer-range threats coming out of East Asia. The 
Beale radar will play an instrumental role in tests this year to 
demonstrate the system's ability to intercept intercontinental-range 
missiles using operationally configured assets.
    This past year we added six more Aegis Long-Range Surveillance and 
Track destroyers to our force, for a total of eleven. These ships 
provide much sought-after flexibility in our architecture, giving us 
more time to engage enemy missiles and improving the performance of the 
entire system.
    We are making good progress in integrating the Sea-Based X-band 
radar into the system. It is the most powerful radar of its kind in the 
world and will provide the system a highly advanced detection and 
discrimination capability. This past January the radar completed its 
long journey from Texas, where it underwent extensive sea trials and 
high-power radiation testing in the Gulf of Mexico, to Hawaii. This 
spring its voyage continues to Adak, Alaska, where it will be home-
ported and put on station.
    This past year the Forward-Based Radar, our transportable X-band 
radar, successfully acquired and tracked intercontinental ballistic 
missiles in tests conducted at Vandenberg Air Force Base. We are now 
preparing to deploy the radar to provide precision track and 
discrimination capabilities, which will improve regional and homeland 
missile defense capabilities.
    We also completed subsystem checkout of the Fylingdales radar in 
the United Kingdom and achieved high-power radiation. We conducted the 
necessary operator training at that site and are now in the middle of 
completing an important series of ground tests that are necessary to 
verify this system's capability, tests that had been deferred on the 
recommendations of the Mission Readiness Task Force. We expect to 
complete testing at Fylingdales later this year.
    We have an extensive command, control, battle management and 
communications infrastructure to support all these elements, and we are 
ready to provide complete operations and maintenance support to the 
warfighter. We have taken the first step in integrating the BMD system, 
which is necessary to establish an affordable and effective global, 
layered defense. We have installed hardware and software at the United 
States Northern Command (NORTHCOM), United States Strategic Command 
(USSTRATCOM), and United States Pacific Command (PACOM). C2BMC 
capabilities include basic deliberative crisis planning and common 
situational awareness at these Combatant Commands. In addition, we now 
provide common situational awareness directly to the President of the 
United States and the Secretary of Defense to aid in decision-making. 
In addition to fielding these suites, we also completed five major 
software release upgrades this past year, each improving the capability 
of the command, control, battle management and communications system.
    It is this global connective capability that allows us to combine 
different sensors with different weapons. For example, we are 
developing the Aegis BMD system so that it can support a ground-based 
interceptor launch by sending tracking information to the fire control 
system. A forward-deployed radar can cue and pass tracking information 
on to, for example, a Patriot Advanced Capability-3 unit, or a 
regionally deployed Terminal High Altitude Area Defense battery, or a 
Ground-based Midcourse Defense or Aegis BMD engagement ships. In other 
words, we want to be able to mix and match sensor and interceptor 
resources to give the system more capability by expanding the detection 
and engagement zones. Our ability to integrate all of the weapons and 
sensors into a single package that will use interceptors in the best 
location to make the kill gives us a critical multiplier effect.
    We work closely with U.S. Strategic Command and the Combatant 
Commanders to certify missile defense crews at all echelons to ensure 
that they can operate the ballistic missile defense system. We have 
exercised the command, fire control, battle management and 
communication capabilities critical to the operation of the system.
    We also are continuing to exercise the system to learn how best to 
operate it, and we have demonstrated our ability to transition smoothly 
from test to operations and back. In our exercises and tests, we have 
worked through a number of operational capability demonstrations in 
order to increase operational realism and complexity, certify crews and 
safety procedures, and demonstrate the operational viability of the 
system. The Missile Defense Agency will continue to coordinate with the 
warfighter to implement developmental upgrades and improvements in the 
system to maximize system capability. This is very important since we 
will continue to improve the capabilities of the system over time, even 
as we remain ready in the near-term to take advantage of its inherent 
defensive capability should the need arise.

               BUILDING CONFIDENCE THROUGH SPIRAL TESTING

    We have consistently pursued a comprehensive and integrated 
approach to missile defense testing and are gradually making our tests 
more complex. Missile defense testing has evolved, and will continue to 
evolve, based on results. We are not in a traditional development, 
test, and production mode where we test a system, then produce hundreds 
of units without further testing. We will always be testing and 
improving this system, using a testing approach that cycles results 
into our spiral development activities. This approach also means 
fielding test assets in operational configurations. This dramatically 
reduces time from development to operations in a mission area where, 
until now, this nation has been defenseless.
    Last year, following the two launch aborts of the interceptor for 
the Ground-based Midcourse Defense element, I explained that we had 
several concerns with quality control and reliability; but we did not 
view the failures as major technical setbacks. In response to those 
failures, I chartered an independent team to review our test processes, 
procedures and management. The team concluded that the Ground-based 
Midcourse Defense program met the challenge of providing an initial 
defensive capability but found deficiencies in systems engineering, 
ground qualification testing, flight test readiness certification, 
contractor process control and program scheduling. The independent 
review team recommended that the Missile Defense Agency reorient the 
missile defense program to strengthen its emphasis on mission 
assurance.
    I established a Mission Readiness Task Force under Admiral Kate 
Paige to implement the corrective actions needed to ensure a return to 
a successful flight test program. The task force identified steps to 
strengthen our systems engineering and quality assurance processes and 
provide the reliability and repeatability necessary for operational 
success. As a result, we undertook a comprehensive review of these 
system processes at each step along the way. We are also undertaking 
the necessary ground and flight qualification tests to retire the risks 
uncovered by the independent review team and the Mission Readiness Task 
Force. To strengthen our test program, I diverted four long-range 
interceptors slated for operational use into testing, with the intent 
to replace them in 2007 if our test program was successful. Last year, 
I asked the committee to have patience, knowing that the system's basic 
functionality was not at risk. As a result of our aggressive actions, I 
believe that mission assurance and system reliability are now on track.
    We finished the year strongly with a string of test successes 
across the board. These successes continue to build confidence in our 
spiral development approach. In a major step forward, in September 
2005, we flew a threat representative target across the operational 
Cobra Dane radar and generated an intercept solution using the long-
range fire control system. We then flew the operational configuration 
of the long-range interceptor in December 2005 and put the kill vehicle 
through its paces. We not only achieved all of the test objectives for 
that flight, but we also accomplished many of those objectives we 
identified for the next flight test scheduled for this spring. Last 
February, we exercised an engagement sequence that used the Upgraded 
Early Warning Radar at Beale Air Force Base in California to provide 
tracking information to a simulated long-range interceptor from an 
operational site at Vandenberg. Based on the many tests we have 
conducted to date, including three successful flight tests of the 
operational long-range booster now emplaced in Alaska and California, 
we maintain our confidence in the system's basic design, its hit-to-
kill effectiveness, and its inherent operational capability. We will 
continue to test this system to ensure it will remain mission ready.
    We continue to work closely with the Director, Operational Test & 
Evaluation, Operational Test Agencies, and Combatant Commanders to 
characterize the effectiveness and readiness of the system at every 
stage in its development and fielding. This year the fielded BMD system 
will undergo ever more challenging and operationally realistic testing.
    We will begin the important next step of testing our long-range 
ground-based defense with more operationally robust flight tests as a 
part of the integrated ballistic missile defense system. With the next 
tests involving the Ground-Based Interceptor, we will step up testing 
complexity and involve operational crews, operational interceptor 
launch sites, and operational sensors. These tests will involve an 
operationally configured interceptor launched from Vandenberg that will 
attempt to acquire and intercept a target missile launched out of the 
Kodiak Launch Complex in Alaska. With the last two tests in this 
series, we will demonstrate the ability of the system to perform more 
refined acquisition and discrimination functions and the ability of the 
exo-atmospheric kill vehicle to divert toward the target and intercept 
it. We also plan to use tracking data from the Sea-Based X-band radar 
when it is available to feed its data into system tests and operations. 
In 2007, as we return our focus to fielding long-range interceptors, we 
plan one system intercept test and one flight test, both of which will 
further demonstrate the operationally configured interceptor.
    In our sea-based midcourse defense element, we have continued to 
ratchet up the degree of realism and reduce testing limitations. This 
past November, for the first time, we successfully used a U.S. Navy 
Aegis cruiser to engage a separating target carried on a threat-
representative medium-range ballistic missile. A separating target is 
more challenging to engage because it can fly faster and farther than 
the boosting missile. In order to increase operational realism, we did 
not notify the operational ship's crew of the target launch time, and 
they were forced to react to a dynamic situation. We are planning two 
more Aegis interceptor flight tests in 2006. Last March, we conducted a 
very successful cooperative test with Japan involving a simulated 
target to demonstrate the engagement performance of a modified SM-3 
nosecone developed by the Japanese in the United States/Japan Joint 
Cooperative Research project. One of the upcoming U.S. Aegis intercept 
tests will again involve a separating warhead. In 2007 we plan to 
conduct two tests of the sea-based interceptor against short and 
medium-range targets.
    Flight-testing involving the redesigned interceptor for the 
Terminal High Altitude Area Defense (THAAD) began last November when we 
successfully demonstrated the separation and operation of the 
production booster and kill vehicle. This year we will conduct four 
more tests to characterize performance of the new missile and the 
ability to integrate it into the BMD system. Later this year we will 
also conduct the first intercept test high in the atmosphere. In 2007 
we plan to conduct four intercept tests as part of our THAAD flight 
test program.
    Also planned in 2007 are two Arrow system flight tests and one 
Patriot combined developmental and operational test. The command, 
control, battle management, and communications infrastructure will be 
exercised in all of our system level tests.
    Ground tests, wargames and modeling and simulation help demonstrate 
interoperability, assess performance and specification compliance, and 
develop doctrine, tactics, techniques and procedures. In 2007 we will 
continue with our successful ground-testing, which involves warfighter 
personnel and test hardware and software in the integrated system 
configuration to demonstrate system connectivity and interoperability. 
Upcoming tests will verify integration of the sea-based, forward-based, 
and Fylingdales radars. The funds we are requesting also will support 
additional capability demonstrations and readiness demonstrations led 
by the warfighting community.

               COMPLETING THE NEXT INCREMENT--BLOCK 2006

    To keep ahead of rogue nation threats, we continue to hold to the 
fielding commitments we made to the President for Block 2006, which 
include investment in the necessary logistics support and command, 
control, battle management and communications infrastructure. In 2006 
and 2007, we will build on the successes we had in 2005 to improve 
protection against a North Korean threat, provide protection against a 
threat from the Middle East, expand coverage to allies and friends, 
increase countermeasure resistance, and improve protection against 
short-range ballistic missiles. We are also planning to field more 
mobile, flexible interceptors and associated sensors to meet threats 
from unanticipated launch locations.
    For midcourse capability against the long-range threat, the Ground-
based Midcourse Defense (GMD) element budget request for fiscal year 
2007 of $2.7 billion will cover continued development, ground and 
flight testing, fielding and support. This is about $125 million more 
than we budgeted for fiscal year 2007 in last year's submission. The 
risk-reduction work prescribed by the Mission Readiness Task Force has 
caused us to reduce the number of interceptors fielded in 2007. This 
request includes up to 4 additional ground-based interceptors, for a 
total of 20 interceptors in Alaska by the end of 2007, their silos and 
associated support equipment and facilities as well as the long-lead 
items for the next increment. The increase in fiscal year 2007 funding 
from last year to this year is attributed, in part, to increased 
sustainment, logistics and force protection requirements, as well as to 
other needs associated with preparing the system for operations. This 
budget submission also continues the upgrade of the Thule early warning 
radar in Greenland and its integration into the system.
    The Royal Air Force Fylingdales early warning radar in the United 
Kingdom will be fully integrated for missile defense purposes by fall 
2006. It will provide sensor coverage against Middle East threats.
    As part of our effort to make the system more robust, improve 
defense of our allies, and address threat uncertainties, we are 
continuing discussions with our allies in Europe regarding the 
deployment of radars and a third site for Ground-Based Interceptors. 
Later this year we will be able to give greater definition to this 
important evolutionary effort.
    To address the short- to intermediate-range threat, we are 
requesting approximately $1.9 billion to continue development and 
testing of our sea-based midcourse capability, or Aegis BMD, and our 
land-based THAAD terminal defense capability. System tests will involve 
further demonstrations of the sea-based interceptor, and we will 
continue enhancing the system's discrimination capability. We will 
continue Standard Missile-3 improvements. We added approximately $49 
million to the fiscal year 2007 request for Aegis BMD from last year to 
this year to address the Divert and Attitude Control System and other 
aspects of the system, including the development of a more capable 2-
color seeker for the SM-3 kill vehicle. We will continue purchases of 
the SM-3 interceptor and the upgrading of Aegis ships to perform the 
BMD mission. By the end of 2007 we will have three Aegis engagement 
cruisers, seven engagement destroyers, and seven Long Range 
Surveillance and Track destroyers. These sea-based sensors and weapons 
will improve our ability to defend the homeland and our deployed troops 
and our friends and allies. In fiscal year 2007 we will initiate work 
with Japan for follow-on SM-3 development in order to increase its 
range and lethality. We also will continue the THAAD development effort 
that will lead to fielding the first unit in the 2008-2009 timeframe 
with a second unit available in 2011.
    We will continue to roll out sensors that we will net together to 
detect and track threat targets and improve discrimination of the 
target set in different phases of flight. In 2007, we will prepare a 
second forward-based X-band radar for operations. We also are working 
towards a 2007 launch of two Space Tracking and Surveillance System 
(STSS) test bed satellites. These demonstration satellites will perform 
target acquisition and handover and explore approaches for closing the 
fire control loop globally for the entire BMD system. In fiscal year 
2007 we will undertake initial satellite check-out and prepare for 
tests involving live targets. We are requesting approximately $380 
million in fiscal year 2007 to execute this STSS activity, and $402 
million for the Forward-Based Radar work.
    For the ballistic missile defense system to work effectively, all 
of its separate elements must be integrated by a solid command, 
control, battle management and communications foundation that spans 
thousands of miles, multiple time zones, hundreds of kilometers in 
space and several Combatant Command areas of responsibility. C2BMC 
allows us to pass critical information from sensors to provide input 
for critical engagement decisions. Combatant Commanders can use the 
C2BMC infrastructure to enhance planning and help synchronize globally 
dispersed missile defense assets. These capabilities also can provide 
our senior government leadership situational awareness of ballistic 
missile launches and defense activities.
    This C2BMC capability allows us to mix and match sensors, weapons 
and command centers to dramatically expand our detection and engagement 
capabilities over what can be achieved by the system's elements 
operating individually. We cannot execute our basic mission without 
this foundation.
    With this year's budget request for $264 million for the C2BMC 
activity, we will continue to use spiral development to incrementally 
develop, test, and field hardware and software improvements. We will 
press on with the development of the initial global integrated fire 
control to integrate Aegis BMD, the forward-based radar, and Ground-
based Midcourse Defense assets. We plan to install additional planning 
and situational awareness capabilities to facilitate executive 
decision-making among the Combatant Commanders.
    The Missile Defense Agency is committed to delivering the best 
capabilities to the warfighter in a timely manner, and warfighter 
participation and input is a critical part in the engineering process. 
Today, the Army National Guard's 100th Missile Defense Brigade, Air 
Force's Space Warfare Center, and Navy ships in the Pacific Fleet are 
on station and operating the system. Our fiscal year 2007 request 
continues to fund critical sustainment and fielding activities and 
ensure that system developers have financial resources to support 
fielded components. We will continue to work collaboratively with the 
Combatant Commanders and the Military Services as the system evolves to 
define and prioritize requirements. Exercises, wargames, and seminars 
continue to be important collaboration venues. We will also continue to 
support training activities to ensure operational readiness, combat 
effectiveness, and high-level system performance.

            MOVING TOWARD THE FUTURE--BLOCK 2008 AND BEYOND

    There is no silver bullet in missile defense, and strategic 
uncertainty could surprise us tomorrow. So it is important that we 
continue our aggressive parallel paths approach to building this 
integrated, multilayered defensive system. There are several important 
development efforts funded in this budget.
    In executing our program we continue to follow a strategy of 
retaining alternative development paths until capability is proven--a 
knowledge-based funding approach. That means we are setting specific 
targets, or knowledge points, that the development efforts have to 
reach within certain periods of time. Knowledge points are not reviews, 
but discrete activities in a development activity that produce data on 
the most salient risks. The approach involves tradeoffs to address 
sufficiency of defensive layers--boost, midcourse, terminal; diversity 
of basing modes--land, sea, air and space; and considerations of 
technical, schedule, and cost performance. This is fundamental to how 
we execute the development program, because it enables us to make 
decisions as to what we will and will not fund based upon the proven 
success of each program element.
    For example, we are preserving decision flexibility with respect to 
our boost phase programs until we understand what engagement 
capabilities they can offer. We have requested approximately $984 
million for these activities in fiscal year 2007. This past year the 
revolutionary Airborne Laser (ABL) reached its knowledge points when it 
achieved a full duration lase at operational power and completed 
initial flight tests involving its beam control/fire control system. 
The program's knowledge points for 2006 include flight testing of the 
lasers used for target tracking and atmospheric compensation. This 
testing, which will test the entire engagement sequence up through the 
point where we fire the laser, will require use of a low-power laser 
surrogate for the high-power laser. Once we have completed modification 
of the aircraft which has begun in Wichita, Kansas, we will start 
installation of the high-power laser modules in 2007. This will provide 
us with the first ABL weapon system test bed and allow us to conduct a 
campaign of flight tests with the full system. In addition to 
installation of the high-power lasers, we will continue integration, 
ground, and flight test activities in fiscal year 2007 to support ABL's 
low-power beam control/fire control and battle management systems. We 
will be working towards a lethal demonstration of the weapon system 
against a boosting ballistic missile in 2008.
    We still have many technical challenges with the Airborne Laser. 
Yet the series of major achievements beginning in 2004, when we 
achieved first light and first flight of the aircraft with its beam 
control/fire control system, gives me reason to be optimistic that we 
can produce an effective directed energy capability. An operational 
Airborne Laser could provide a valuable boost-phase defense capability 
against missiles of all ranges.
    The Kinetic Energy Interceptor (KEI) is a boost-phase effort in 
response to a 2002 Defense Science Board Summer Study recommendation to 
develop a terrestrial-based boost phase interceptor as an alternative 
to the high-risk Airborne Laser development effort. Last year we 
focused near-term efforts in our kinetic energy interceptor activity to 
demonstrate key capabilities and reduce risks inherent in the 
development of a land-based, mobile, very high acceleration booster. It 
has always been our view that the KEI booster, which is envisioned as a 
flexible and high-performance booster capable of defending large areas, 
could be used as part of an affordable, competitive next-generation 
upgrade for our midcourse or even terminal interceptors. A successful 
KEI mobile missile defense capability would improve significantly our 
ability to protect our allies and friends.
    This past year we demonstrated important command, control, battle 
management, and communications functions required for a boost intercept 
mission, including the use of national sensor data for intercept 
operations in the field. The key knowledge point for this program is 
the demonstration of a very high acceleration booster. We began a 
series of static firing tests of the first and second stages of the 
booster and had a successful firing this past January. We plan a flight 
test to verify the new booster in 2008.
    Development of the Multiple Kill Vehicle (MKV) system will offer a 
generational upgrade to ground-based midcourse interceptors by 
increasing their effectiveness in the presence of multiple warheads and 
countermeasures. We are exploiting miniaturization technology to 
develop a platform with many small kill vehicles to engage more than 
one object in space. This effort will supplement other innovative 
discrimination techniques we are developing for use in the midcourse 
phase by destroying multiple threat objects in a single engagement. In 
2005 we made progress in the development of the MKV seeker, but 
resource constraints and technical shortfalls have caused a delay in 
this development effort. We are now planning to conduct the hover test 
in 2009. Our first intercept attempt using MKV is now scheduled for 
2012. We are requesting $162 million in fiscal year 2007 to continue 
the MKV development effort.

                      INTERNATIONAL PARTICIPATION

    The global nature of the threat requires that we work closely with 
our allies and friends to develop, field, and operate missile defenses. 
We have made significant progress in fostering international support 
for the development and operation of a ballistic missile defense system 
capable of intercepting ballistic missiles of all ranges in all phases 
of flight. We have been working closely with a number of allies and 
friends of the United States to forge international partnerships. I 
would like to highlight a few of our cooperative efforts.
    The Government of Japan continues to make significant investments 
toward the acquisition of a multilayered BMD system, with capability 
upgrades to its Aegis destroyers and acquisition of the Standard 
Missile-3 interceptor. We have worked closely with Japan since 1999 to 
design and develop advanced interceptor components. This project 
culminated in the flight test of an advanced SM-3 nosecone earlier this 
year and ended this phase of our joint cooperative research. 
Additionally, the Missile Defense Agency and Japan have agreed to co-
develop a Block IIA version of the SM-3 missile, which will 
significantly improve the kinematics and warhead capability. We also 
have agreed to deploy an X-band radar to Japan, which will enhance 
regional and homeland missile defense capabilities. In addition, Japan 
and other allied nations continue upgrading their Patriot fire units 
with Patriot Advanced Capability-3 missiles and improved ground support 
equipment.
    In addition to the Fylingdales radar development and integration 
activities, we are undertaking a series of cooperative technical 
development efforts with the United Kingdom. Newly installed 
situational awareness displays in the United Kingdom also are 
indicative of our close collaboration with our British allies in the 
missile defense area.
    Last year we signed an agreement with Denmark to upgrade the radar 
at Thule and integrate it into the system. This radar will play an 
important role in the system by providing additional track on hostile 
missiles launched out of the Middle East.
    We will continue to expand cooperative development work on sensors 
and build on our long-standing defense relationship with the government 
of Australia. In April 2005 we concluded a Research, Development, Test 
and Evaluation agreement to enable collaborative work on specific 
projects, including high frequency over-the-horizon radar, track fusion 
and filtering, distributed aperture radar experiments, and modeling and 
simulation.
    We are continuing work with Israel to implement the Arrow System 
Improvement Program and enhance its capability to defeat longer-range 
ballistic missile threats emerging in the Middle East. This past 
December Israel conducted a successful launch and intercept of a 
maneuvering target using the Arrow missile. The United States and 
Israel are co-producing components of the Arrow interceptor missile, 
which will help Israel meet its defense requirements more quickly and 
maintain the U.S. industrial work share.
    We also have been in discussions with several allies located in or 
near regions where the threat of ballistic missile use is high for the 
forward placement of sensors, and we continue to support our North 
Atlantic Treaty Organization (NATO) partners in conducting a 
feasibility study to examine potential architecture options for 
defending European NATO population centers against longer-range missile 
threats. This work builds upon ongoing work to define and develop a 
NATO capability for protection of deployed forces. We have other 
international interoperability and technical cooperation projects 
underway and are working to establish formal agreements with other 
governments.

                                CLOSING

    Mr. Chairman, I want to thank this committee for its continued 
support of the Missile Defense Program. When I appeared before you last 
year, we faced numerous challenges. Over the past year, the dedicated 
men and women of the Missile Defense Agency and our industrial partners 
met these challenges head-on and overcame the difficulties we 
experienced in 2004 and early in 2005. The result was that in 2005 we 
made significant progress. We had a series of successful tests that are 
unparalleled in our development efforts to date. In 2006 and 2007 I am 
confident that we will continue this success. I am proud to serve with 
these men and women, and the country should be grateful for their 
unflagging efforts.
    There have been many lessons learned, and I believe the processes 
are in place to implement them as we field follow-on increments of the 
system. I also believe that our program priorities foster long-term 
growth in multilayered and integrated capabilities to address future 
threats. There certainly are risks involved in the development and 
fielding activities. However, I believe we have adequately structured 
the program to manage and reduce those risks using a knowledge-based 
approach that requires each program element to prove that it is worthy 
of being fielded.
    Thank you and I look forward to your questions.

    Senator Stevens. General Dodgen.

STATEMENT OF LIEUTENANT GENERAL LARRY J. DODGEN, 
            COMMANDING GENERAL, U.S. ARMY SPACE AND 
            MISSILE DEFENSE COMMAND/U.S. ARMY FORCES 
            STRATEGIC COMMAND, UNITED STATES ARMY
    General Dodgen. Thank you, sir.
    Mr. Chairman, Senator Inouye, and members of the 
subcommittee, thank you for your ongoing support of our 
military and for the opportunity to appear before this 
distinguished panel.
    This subcommittee continues to be a great friend of the 
Army and the missile defense community, particularly in our 
efforts to field missile defense forces for the Nation and our 
allies. I appear before this subcommittee in two roles. The 
first is as the warfighting member of the joint missile defense 
team. I am the Commander of the Joint Functional Component 
Command for Integrated Missile Defense, or JFCC-IMD, a part of 
United States Strategic Command. The JFCC is a joint user 
representative working closely with the Missile Defense Agency, 
services, and combatant commanders to ensure that our national 
goal of developing, testing, and deploying an integrated 
missile defense system is met.
    The second is as an Army commander for missile defense and 
a proponent for the ground-based midcourse defense system. In 
my role as the JFCC-IMD commander, I directly support the U.S. 
Strategic Command (USSTRATCOM) commander in planning the global 
missile defenses. The JFCC is truly joint, manned by Army, 
Navy, Air Force, and Marine Corps personnel, and is 
headquartered at the Joint National Integration Center at 
Schriever Air Force Base, Colorado.
    This arrangement allows us to leverage the existing robust 
infrastructure and our strong partnership with the Missile 
Defense Agency to execute the IMD mission. In the past year, 
the JFCC-IMD has aggressively executed USSTRATCOM's global 
mission to plan, coordinate, and integrate missile defense. In 
collaboration with geographical combatant commanders, we are 
developing the IMB plans that integrate theater and national 
assets to provide the best protection. STRATCOM, in partnership 
with MDA, is setting the stage to evolve the ballistic missile 
defense system (BMDS) beyond its current capabilities to 
provide a more robust missile defense for the homeland, 
deployed forces, friends, and allies.
    I would now like to highlight the Army fiscal year 2007 
budget submission for air and missile defense (AMD) systems.
    The President's budget, presented to Congress on February 
6, includes approximately $1.57 billion with which the Army 
proposes to perform current Army AMD responsibilities and focus 
on future development and enhancement of both terminal phase 
and short-range AMD systems. The Patriot system remains the 
Army's mainstay theater air and missile defense system and our 
Nation's only deployed land-based short- to medium-range 
ballistic missile defense capability. Today's Patriot force is 
a mixture of configured units. To maximize our capabilities and 
better support the force, the Army is moving toward updating 
the entire Patriot force to the PAC-3 configuration.
    The medium extended air defense system, or MEADS, is a 
cooperative development program with Germany and Italy to 
collectively field an enhanced ground-based air and missile 
defense capability. The MEADS program will enable the joint 
integrated air and missile defense community to move beyond the 
critical asset defense designs we see today. MEADS will provide 
theater-level defense of critical assets and continuous 
protection of a rapidly advancing maneuver force as part of a 
joint integrated AMD architecture.
    As I believe you are aware, the Patriot/MEADS combined 
aggregate program (CAP) has been established. The objective of 
the CAP is to achieve the objective MEADS capability through 
incremental fielding of MEADS major end items in the Patriot. 
Patriot/MEADS CAP is an important capability that will operate 
within MDA's BMDS. The Patriot and PAC-3 CAP research 
development and acquisition budget request for fiscal year 2007 
is approximately $916 million. This request procures 108 PAC-3 
missiles, purchases spares for the system, and reflects the 
necessary Patriot development to keep the system viable as we 
pursue development of the CAP capabilities.
    The fiscal year 2007 President's budget also includes a 
$264 million request for joint land attack cruise missile 
defense elevated netted sensor system, a program developing 
unique lightweight fire-control and surveillance radars to 
detect, track, and identify cruise missile threats. With the 
program funding, we expect first unit equipped occurring by 
2011. Surface launched advanced medium range air to air missile 
(SLAMRAAM) will provide a cruise missile defense system to 
maneuver forces within an extended battle space and a beyond-
line-of-sight engagement capability critical to countering the 
cruise missile and unmanned aerial vehicle threats we foresee 
in the future.
    I appreciate having the opportunity to speak on these 
important matters, and I look forward to addressing questions 
you and other members of the subcommittee may have. I also 
respectfully request that my written statement be submitted for 
the record.
    Thank you, Mr. Chairman.
    Senator Stevens. The statement has been included in the 
record, General.
    [The statement follows:]

        Prepared Statement of Lieutenant General Larry J. Dodgen

                              INTRODUCTION

    Mr. Chairman, Senator Inouye, and Members of the Committee, thank 
you for your ongoing support of our military and for the opportunity to 
appear before this distinguished panel. This Committee continues to be 
a great friend of the Army and the missile defense community, 
particularly in our efforts to field missile defense forces for the 
Nation and our allies. I consider it a privilege to be counted in the 
ranks with Lieutenant General Obering as an advocate for a strong 
global missile defense capability.
    I appear before this committee in two roles. The first is as an 
Army Commander for missile defense and a proponent for the Ground-based 
Midcourse Defense (GMD) System. The second is as a soldier in the Joint 
Missile Defense Team and Commander of the Joint Functional Component 
Command for Integrated Missile Defense (JFCC-IMD), a part of the United 
States Strategic Command (USSTRATCOM), and the joint user 
representative working closely with the Missile Defense Agency (MDA), 
other services, and Combatant Commanders to ensure that our National 
goals of developing, testing, and deploying an integrated missile 
defense system (IAMD) are met.
    Mr. Chairman, as I reported last year, Army soldiers are trained, 
ready, and operating the GMD System at Fort Greely, Alaska, and the 
Joint National Integration Center (JNIC) at Schriever Air Force Base in 
Colorado. Just a couple of years ago, we activated the GMD Brigade in 
Colorado Springs, Colorado, and a subordinate GMD Battalion at Fort 
Greely. These soldiers, as part of the Joint team, are our Nation's 
first line of defense against any launch of an intercontinental 
ballistic missile toward our shores. I am proud to represent them along 
with the other members of the Army's Air and Missile Defense (AMD) 
community.

                          USSTRATCOM JFCC-IMD

    The JFCC-IMD was established in January 2005 as one element of 
USSTRATCOM and reached full operational capability on early in 2006. 
This organization complements the capabilities inherent in other 
USSTRATCOM JFCCs and Joint Task Forces (JTFs) which plan, coordinate, 
and integrate USSTRATCOM's other global missions of Space and Global 
Strike, Intelligence Surveillance and Reconnaissance (ISR), Net Warfare 
and Global Network Operations, and the newest element, the USSTRATCOM 
Center for Combating Weapons of Mass Destruction (WMDs).
    The JFCC-IMD is manned by Army, Navy, Air Force, and Marine Corps 
personnel. It is headquartered at the JNIC at Schriever Air Force Base, 
Colorado. This arrangement enables us to execute the IMD mission by 
leveraging the existing robust infrastructure and our strong 
partnership with our collocated MDA team.
    In the past year, USSTRATCOM, through the JFCC-IMD, has 
aggressively executed its mission to globally plan, coordinate, and 
integrate missile defense. In collaboration with geographic Combatant 
Commands, we are developing IMD plans within a regional area of 
operations in the context of USSTRATCOM's global mission instead of 
individual theater plans.
    Based on guidance from the Commander, USSTRATCOM, we have also 
developed plans to take existing MDA assets, currently in test and 
development status, and rapidly transition them, in an emergency, to an 
operational warfighting capability. This allows USSTRATCOM to provide 
additional critical IMD capabilities to the Combatant Commands in times 
of crisis. Examples of this capability include early activation and 
deployment of the AEGIS SM3 Missile and the sea-based and Forward Based 
X-band Transportable (FBX-T) Radar to operational locations in the 
Pacific region, where, by the end of 2006, they will join a global 
network of radars. USSTRATCOM initiated planning efforts to integrate 
the capabilities of all the JFCCs to support the ``New Strategic 
Triad,'' as it determines the next steps needed to fulfill our 
commitment to an integrated missile defense capable of defending the 
United States, its deployed forces, friends, and allies.
    JFCC-IMD works closely with the other JFCC elements of USSTRATCOM 
and the Combatant Commands to make Offense-Defense Integration, ISR, 
and the other mission areas integral aspects of how we fight, to ensure 
the optimal application of limited resources.
    The IMD community, led by the USSTRATCOM Commander and his Unified 
Command Plan Authority, has conducted numerous capability and readiness 
demonstrations, integrated flight and ground tests, and Combatant 
Command exercises to develop and validate the operators' tactics, 
techniques, and procedures. As we work toward our system's future 
operational capability, increased warfighter involvement in the testing 
and exercising of the Ballistic Missile Defense System (BMDS) ensures 
both the viability of the defense and the confidence of its operators.
    USSTRATCOM, through the JFCC-IMD, is leading the planning of global 
missile defenses with the development of the global IMD Concept of 
Operations (CONOPS). The CONOPS relies on the development and 
coordination of engagement sequence groups (ESGs) and the advocacy of 
desired global missile defense characteristics and capabilities.
    USSTRATCOM-developed global IMD CONOPS serves as a roadmap for the 
warfighting community to guide the development of more detailed IMD 
planning and execution. These CONOPS contains two fundamental 
principles. First, the geographic component commanders execute the IMD 
fight within their Areas of Responsibility (AORs). Second, multi-
mission sensors are centrally tasked by USSTRATCOM Commander to 
optimize their use in forming ESGs.
    As a key requirement for IMD planning, the identification of ESGs 
as the optimal pairing of sensor and weapon capabilities required to 
provide active missile defense for the designated defended area is 
critical. The ESGs are a tool the IMD community uses to help operate 
the BMDS by balancing operational necessity with the realities of 
ongoing research, development, and testing in the near term. As more 
elements and components are made available, ESGs will serve to optimize 
our global missile defense system.
    The USSTRATCOM commander represents all the component commands as 
the advocate for IMD. He executes this responsibility at two levels. 
First, for those elements already deployed, Headquarters, USSTRATCOM 
J8, in collaboration with the JFCC-IMD, conducts the Warfighter 
Involvement Process (WIP) to evaluate the adequacy of the current 
capabilities of the BMDS. This process can encompass anything from 
identifying simple human interface changes or modifications to 
developing refined planning tools. These needs are prioritized by 
USSTRATCOM for review and approval and are provided to MDA for 
consideration. The second level of advocacy focuses on future 
capability needs. These future elements and components will provide 
additional capabilities that enable a more robust, reliable, and 
capable system.
    The critical element that ties the entire BMDS system together is 
the Command and Control Battle Management Communications, or C2BMC. 
C2BMC is an essential evolutionary component of the BMDS that will 
greatly enhance both planning and execution capabilities. C2BMC 
contributes to all phases of BMD from optimizing planning to 
synchronizing the automated execution of the BMDS. Upgrades to the 
Command, Control, Battle Management, and Communications System will 
extend situational awareness capability to Pacific Command and European 
Command by the end of 2006.
    As our planning processes have matured over the past year, JFCC-
IMD's innovative use of new collaborative planning capabilities in 
major combatant command exercises has demonstrated the effectiveness of 
distributed crisis action planning. JFCC-IMD was able to support the 
Combatant Commands with development of new defense designs and 
optimized locations for BMDS in exercises such as USSTRATCOM's GLOBAL 
LIGHTNING and PACOM's TERMINAL FURY.
    Through our partnership with MDA, the Services, and the warfighters 
at the Combatant Commands, USSTRATCOM is setting the stage to evolve 
the BMDS beyond its current capability to that of providing more robust 
missile defense for the homeland, deployed forces, friends and allies. 
We are actively engaged with MDA and the Services in the development 
and deployment of BMDS elements and components ensuring a layered, 
multi-phase operational capability for the Combatant Commands.

   AIR AND MISSILE DEFENSE--AN OVERVIEW OF THE FISCAL YEAR 2007 ARMY 
                           BUDGET SUBMISSION

    In addition to deploying a GMD system, MDA, the Services, and the 
Combatant Commanders are focused on improving Theater Air and Missile 
Defense (TAMD) capabilities within the context of the evolving BMDS in 
Integrated Air and Missile Defense (IAMD) Joint Integrating Concept. 
Both GMD and TAMD systems are vital for the protection of our homeland, 
deployed forces, friends, and allies. Air and missile defense is a key 
component in support of the Army's core competency of providing 
relevant and ready land power to Combatant Commanders.
    I would now like to focus on the Army's fiscal year 2007 budget 
submission for Air and Missile Defense (AMD) systems. The President's 
Budget, presented to Congress on February 6th, includes approximately 
$1.57 billion with which the Army proposes to perform current Army AMD 
responsibilities and focus on future development and enhancements of 
both terminal phase and short-range AMD systems. In short, the Army is 
continuing major efforts to improve the ability to acquire, track, 
intercept, and destroy theater air and missile threats.
    The Army, as part of the Joint team, is transforming its AMD forces 
to meet the increasingly sophisticated and asymmetric threat 
environment encountered by the Joint warfighter. The Army has the lead 
to conduct the IAMD Capabilities Based Assessment. This analysis will 
comprise the front end of the Chairman of the Joint Chiefs of Staff 
Joint Capabilities Integration Development System. The study will 
identify key joint, agency and combat command IAMD capability gaps and 
will recommend doctrine, organization, training, materiel, leadership 
and education, personnel and facilities (DOTMLPF) transformation 
actions. The document is envisioned to fulfill time-phased IAMD needs 
across the range of military operations.

                    INTEGRATED AMD SYSTEM OF SYSTEMS

    The Army is transforming its Air Defense Force from its current 
separate systems architecture to a component-based, network-centric, 
IAMD System of Systems (SoS). The IAMD SoS program focuses on systems 
integration, common battle command and control, joint enabling 
networking, and logistics and training, to ensure operational 
requirements, such as force protection, lethality, survivability, 
transportability and maneuverability are achieved. The IAMD SoS program 
will employ an evolutionary acquisition strategy consisting of a series 
of increments leading to the objective capability. This SoS approach 
calls for a restructuring of systems into components of sensors, 
weapons and Battle Management Command, Control, Communications, 
Computers, and Intelligence (BMC4I) with a standard set of interfaces 
among these components using a standardized set of networks for 
communication.
    Technology insertions to the IAMD SoS will continue throughout each 
increment as high-payoff technologies mature and are ready for 
integration. Incremental development of the IAMD SoS allows the Army to 
field new or improved capabilities to warfighters faster, by producing 
and deploying systems and components as the technologies mature. 
Funding in the proposed fiscal year 2007 President's Budget supports 
the first steps in achieving an IAMD SoS architecture.

                   AIR AND MISSILE DEFENSE BATTALIONS

    As part of Air Defense Transformation, the Army is creating 
composite AMD battalions. These battalions address capability gaps, 
which permit us to defeat cruise missiles and unmanned aerial vehicles 
(UAVs) while maintaining our ability to defend critical assets from the 
ballistic missile threat. The composite AMD battalions will capitalize 
on the synergies of two previously separate disciplines: short-range 
air defense and high-to-medium altitude air defense. The current plan 
is to organize eight battalions as PATRIOT-pure units, five battalions 
as AMD battalions, and create one battalion as a maneuver AMD battalion 
which will soon be our first pure SLAMRAAM Battalion. This 
transformation is underway.
    Within the context just provided, allow me to briefly discuss each 
of the programs that support the Army's AMD Transformation.

               TERMINAL PHASE BALLISTIC MISSILE DEFENSES

    The PATRIOT/Medium Extended Air Defense System (MEADS) capability 
is designed to counter theater ballistic missile threats in their 
terminal phase in addition to cruise missiles and other air-breathing 
threats. Combining these systems with the Theater High Attitude Area 
Defense (THAAD) System capability being developed by MDA with a planned 
fielding in fiscal year 2009, brings an unprecedented level of 
protection against missile attacks to deployed U.S. forces, friends, 
and allies well into the future.
PATRIOT/PAC 3 and MEADS Overview
    Mr. Chairman, since the combat debut of the PATRIOT AMD System 
during Operation Desert Storm, the Army has continued to implement a 
series of improvements to address the lessons learned. During Operation 
Iraqi Freedom (OIF), we saw the debut of the improved PATRIOT 
Configuration-3 system, including the effective use of the Guidance 
Enhanced Missile and the PATRIOT Advanced Capability 3 (PAC-3) Missile. 
PAC-3 is the latest evolution of the phased materiel improvement 
program to PATRIOT. Combining developmental testing and operational 
data, this program has enabled the development and deployment of a new 
high-velocity, hit-to-kill, surface-to-air missile with the range, 
accuracy, and lethality necessary to effectively intercept and destroy 
more sophisticated ballistic missile threats. Today's PATRIOT force is 
a mixture of PAC-2 and PAC-3 configured units. To maximize the full 
advantage of the PAC-3 capabilities, the Army is moving toward pure-
fleeting the entire PATRIOT force to the PAC-3 configuration.
    As I highlighted last year, PATRIOT saved many lives when defending 
against Iraqi ballistic missile attacks during OIF. However, there were 
some operational deficiencies. The Army has undertaken steps to correct 
them and address lessons learned. The Army has pursued two thrusts--
identification and execution of a $41.6 million program for nine 
specific OIF fixes and continued aggressive participation in joint 
interoperability improvements in situational awareness. All funded OIF 
fixes are on schedule to be completed by the end of fiscal year 2007, 
pending any materiel release issues.
    The PATRIOT system remains the Army's mainstay TAMD system and our 
nation's only deployed land-based short-to-medium range BMDS 
capability. The current PATRIOT force must be maintained through 
sustainment and recapitalization efforts until 2028, until the MEADS 
begins fielding, projected to begin in 2017.
    MEADS is a cooperative development program with Germany and Italy, 
to collectively field an enhanced ground-based AMD capability. The 
MEADS program, which supports the President's goal for international 
cooperation in missile defense, will enable the joint integrated AMD 
community to move beyond the critical asset defense designs we see 
today. MEADS will provide theater level defense of critical assets and 
continuous protection of a rapidly advancing maneuver force as part of 
a Joint IAMD architecture. Major MEADS enhancements include 360-degree 
sensor coverage, a netted and distributed battle manager that enables 
integrated fire control, and a strategically deployable and tactically 
mobile, AMD system. While the PAC-3 missile is the baseline missile for 
the international MEADS program, the Missile Segment Enhancement (MSE) 
missile is being developed to meet U.S. operational requirements. MSE 
will provide a more agile and lethal interceptor that increases the 
engagement envelope.

Combined PATRIOT/MEADS Approach
    With the approval of the Defense Acquisition Executive, the Army 
embarked on a path to merge the PATRIOT and MEADS programs, 
establishing the PATRIOT/MEADS Combined Aggregate Program (CAP) with 
the objective of achieving the MEADS capability through incremental 
fielding of MEADS major end items into PATRIOT. PATRIOT/MEADS CAP is an 
important capability that will operate within MDA's BMDS. It is in 
fact, the number one Army priority system for defense against short and 
medium-range Tactical Ballistic Missiles and air breathing threats 
(i.e. cruise missiles and UAVs). The PATRIOT/MEADS CAP will be capable 
of operating within a joint, interagency, and multinational 
interdependent operational environment. It will provide wide-area 
protection at strategic, operational, and tactical levels.
    PATRIOT/MEADS CAP will also provide BMC4I, introduce lightweight 
deployable launchers, upgrade the PAC-3 missile, and eventually provide 
the full MEADS capability to the entire force. The MEADS system offers 
a significant improvement in the ability to deploy strategically while 
maintaining tactical mobility. The system uses a netted and distributed 
architecture with modular and configurable battle elements, which 
allows for integration with other Army and Joint sensors and shooters. 
These features and capabilities will allow MEADS to achieve a robust 
360-degree defense against all airborne threats. By establishing the 
CAP, the joint integrated AMD architecture has become more robust. 
First, MEADS enhancements are integrated into the existing system. 
Second, as lessons are learned from the present missile defense 
capability, they will be incorporated into the MEADS follow-on system. 
We are confident that this path will provide our service members, 
allies, friends, and the Nation with the most capable AMD system 
possible.
    The Army and the entire missile defense community continue to 
strive to improve our nation's missile defense capabilities. The 
PATRIOT and PAC-3/MEADS CAP research, development, and acquisition 
budget request for fiscal year 2007 is approximately $916.5 million. 
This request procures 108 PAC-3 missiles, purchases spares for the 
system, and reflects the necessary PATRIOT development to keep the 
system viable as we pursue development of PAC-3/MEADS CAP capabilities.

                         CRUISE MISSILE DEFENSE

    In the world today, there exists a real and growing threat from 
land attack cruise missiles. Cruise missiles are inherently very 
difficult targets to detect, engage, and destroy because of their small 
size, low detection signature, and low altitude flight characteristics. 
When armed with a WMD warhead, the effect of a cruise missile could be 
catastrophic. It is clear that the required systems and capabilities 
necessary to counter this emerging threat need to be accelerated to 
field a cruise missile defense (CMD) capability as soon as possible. 
The Army's CMD program is an integral piece of the Joint Cruise Missile 
Defense architecture, and we are proud of our contributions to this 
effort. Critical Army components of the Joint CMD architecture are 
provided by the Joint Land Attack Cruise Missile Defense Elevated 
Netted Sensor (JLENS), the Surface-Launched Advanced Medium Range Air-
to-Air Missile (SLAMRAAM), the Patriot MSE missile, and an integrated 
fire control capability. We are also working closely with the Joint 
community to assure development of doctrine that synchronizes our 
military's full capabilities against the cruise missile threat.

JLENS Overview
    JLENS brings a critically needed capability to address the growing 
CM threat. To support an elevated sensor, the JLENS program is 
developing unique lightweight fire control and surveillance radars to 
detect, track, and identify CM threats. JLENS will support engagements 
using the SLAMRAAM/Complementary Low Altitude Weapon System (SLAMRAAM/
CLAWS), Navy Standard Missile, and PATRIOT/MEADS weapon systems. JLENS 
uses advanced sensor and networking technologies to provide precision 
tracking and 360-degree wide-area, over-the-horizon surveillance of 
land-attack cruise missiles. The fiscal year 2007 JLENS funding request 
of $264.5 million supports development of a full JLENS capability, with 
the first unit equipped by 2011.

SLAMRAAM Overview
    SLAMRAAM will provide a CMD system to maneuver forces with an 
extended battlespace and a beyond line-of-sight, non-line-of-sight 
engagement capability critical to countering the CM threat, as well as 
UAV threats. SLAMRAAM uses the existing Joint AMRAAM missile currently 
used by the Air Force and the Navy, thereby capitalizing on the Joint 
harmony that the Department of Defense (DOD) is striving to achieve. 
The Army and the Marine Corps are also executing a joint cooperative 
development for SLAMRAAM/CLAWS to meet the needs of soldiers and 
Marines in Homeland Defense as well as overseas deployments. The fiscal 
year 2007 funding request of $49 million supports the scheduled Initial 
Operational Capability (IOC) target of 2011.

Sentinel Radar Overview
    The Sentinel Radar is an advanced, three-dimensional, phased array 
air defense radar and a critical component in the Army's ability to 
conduct air surveillance for the maneuver force. Sentinel is a small, 
mobile battlefield radar that supports the joint air defense sensor 
network in detecting cruise missiles, UAVs, and helicopter threats, 
thereby contributing directly to the overall Single Integrated Air 
Picture (SIAP) and supporting multiple Homeland Defense missions. Its 
Enhanced Target Range and Classification (ETRAC) radar upgrades will 
enable it to support engagements at extended ranges and reduce the time 
required to perform target classification. Additionally, these upgrades 
support next generation combat identification for friendly air, thereby 
reducing the possibility of fratricide and providing an enhanced 
positive friendly and civil aviation identification capability. The 
fiscal year 2007 funding request of $17.6 million provides for joint 
identification and composite sensor netting development efforts, four 
ETRAC system upgrade kits, and development and integration of 
improvements to support joint interoperability.

          AIR, SPACE, AND MISSILE DEFENSE COMMAND AND CONTROL

    The Army is increasing its command and control capabilities on the 
battlefield. The Army's Air and Missile Defense Commands (AAMDCs) will 
help integrate TAMD operations, by integrating, coordinating, and 
synchronizing Joint attack operations, active defense, passive defense, 
and C4 operations in the theater, and also globally tie into our JFCC-
IMD.
    Concurrent with the creation of AMD composite battalions, the Army 
has developed, and is now in the process of fielding, air defense 
airspace management (ADAM) cells throughout the force. ADAM cells will 
perform four missions: plan AMD coverage, contribute to third-dimension 
situation awareness and understanding, provide airspace management, and 
integrate operational protection. With an emphasis on receiving and 
sharing the Joint air picture from multiple sources and assets through 
the battle command network, ADAM cells will provide commanders with 
situational awareness as well as the traditional friendly and threat 
air picture, enabling commanders to effectively manage their aerial 
assets. ADAM cells are already being fielded to the Army to meet 
modularity requirements, with two ADAM cells at the Division 
Headquarters and one to every Brigade in the Army, to include both the 
active and reserve forces. This high-priority system has been supported 
through supplemental appropriations to this point. The fiscal year 2007 
funding request of $49.5 million provides 15 ADAM Cells for the active 
and reserve components.
    Also in the past year, the Army activated the 94th Air and Missile 
Defense Command, supporting the U.S. Pacific Command (USPACOM) theater 
of operations. With the 94th AAMDC activation, there are three Army AMD 
Commands; two in the active component and one in the reserve component. 
The 94th AAMDC, designed for Joint and multinational operations, will 
provide for missile defense in the Pacific theater and will assist in 
planning theater-level air and missile defenses. The 94th AAMDC will 
provide the PACOM commander with a more robust theater-based 
capability. Moreover, the unit's presence in the Pacific adds depth, 
because its capability will be readily available to the warfighting 
commander.
    The Joint Tactical Ground Stations (JTAGS), forward deployed today 
in European Command (EUCOM), Central Command (CENTCOM), and PACOM, are 
providing assured missile warnings to Combatant Commanders and assigned 
forces through a direct downlink from space-based infrared assets into 
the joint theater communications architecture. In addition to 
protecting the deployed force, these systems alert the BMDS 
architecture and enhance attack operations. The fiscal year 2007 
funding request of $24.9 million sustains the forward deployed JTAGS 
units supporting Joint warfighters and postures the Army to participate 
with the Air Force in a future ground mobile system compatible with the 
Space-Based Infrared System (SBIRS) and follow-on sensors. The planned 
Multiple Mission Mobile Processor (MP3) Program is being restructured 
due to the delays in the SBIRS schedule.

               COUNTER-ROCKET, ARTILLERY, MORTAR (C-RAM)

    A significant danger in OIF/OEF today is posed by insurgents 
employing indirect-fire tactics of quick-attack, low-trajectory, urban-
terrain-masked rocket, artillery, and mortar (RAM) strikes against U.S. 
forward operating bases in Iraq. To combat this threat, the Army 
developed C-RAM, an integrated solution of capabilities to provide 
warning and intercept of RAM threats. C-RAM provides a holistic 
approach to the Counter-RAM mission. Horizontal integration across the 
core functions--command and control, shape, sense, warn, intercept, 
respond and protect--is providing an integrated modular and scalable 
capability. This capability provides timely warning of mortar attacks, 
intercept and defeat of incoming rounds, and accurate location of 
insurgent mortar crews, enabling a rapid, lethal response. C-RAM takes 
advantage of existing systems and capabilities, combining them in a SoS 
architecture to support the warfighter on today's battlefield. The 
current C-RAM solution is truly Joint, in that it uses fielded systems 
from the Army, Navy and Air Force along with a commercial-off-the-shelf 
(COTS) system. C-RAM has been supported through supplemental 
appropriations. The Army will request funding for continued C-RAM 
fielding in the upcoming supplemental request, and the C-RAM program 
will be included in the Army's POM beginning in fiscal year 2008.

                      DIRECTED ENERGY INITIATIVES

    The Army continues to explore directed energy capabilities for 
weapon system development and integration into Army Transformation 
applications. High Energy Laser (HEL) systems have the potential of 
being combat multipliers, meeting air and missile defense needs in the 
future and enhancing current force capabilities, such as addressing the 
RAM threats. The ability of a HEL system to shoot down RAM targets has 
been repeatedly demonstrated, with mature chemical laser technologies 
proven by the Tactical High Energy Laser (THEL) program.
    Meanwhile, the Army's fiscal year 2007 science and technology 
funding request of $32.8 million supports HEL technology development 
focused on solid state laser technologies that will offer electric 
operation and compatibility with the Future Combat System (FCS) by the 
year 2018. The Army is participating in a Joint high-powered solid 
state laser program with the Office of the Secretary of Defense High 
Energy Laser Joint Technology Office and the other Services to pursue 
several candidate solid state laser technologies with the operating 
characteristics necessary for weapon system development. In fiscal year 
2007, while leveraging the Joint program, the Army is initiating a HEL 
Technology Demonstrator (HELTD) that will, by fiscal year 2013, have 
the ability to shoot down RAM threats as a stepping stone toward 
deployment of HELs in a FCS configuration. Ultimately, HELs are 
expected to complement conventional offensive and defensive weapons at 
a lower cost-per-shot than current systems.

                               CONCLUSION

    Mr. Chairman, the Army, a full contributing member of the Joint 
team, is relevant and ready, fighting the war on terrorism, deployed in 
Southwest Asia and elsewhere, and deterring aggression throughout the 
world, while transforming to meet future threats. With its 
responsibilities for GMD and PATRIOT/MEADS, the Army is an integral 
part of the Joint team to develop and field the BMDS in defense of the 
Nation, deployed forces, friends, and allies. In my role as the Joint 
Functional Component Commander for Integrated Missile Defense, I will 
continue the development of a Joint BMDS capability to protect our 
warfighters and our Nation. The Army has stepped up to the land-attack 
cruise missile defense challenge by aggressively developing the joint, 
integrated, and networked sensor-to-shooter architecture necessary to 
defeat the emerging threat. The fiscal year 2007 budget proposal 
continues the transformation of the Army's ASMD Force to support the 
Army's Future Force, the Joint Integrated Air and Missile Defense 
System, and our global BMDS, building on the ongoing success of our 
theater AMD force in Operation Iraqi Freedom. Transformation will 
continue to define the characteristics of the emerging ASMD force and 
determine how it can best support the Future Force operating in a 
Joint, interagency, and multinational environment.
    I appreciate having the opportunity to speak on these important 
matters and look forward to addressing any questions you or the other 
Committee members may have.

                     MISSILE DEFENSE FLIGHT TESTING

    Senator Stevens. General Obering, the Graham panel 
recommended intensifying the flight and ground testing of your 
systems. And I am told that the Inspector General pointed out 
there were some issues concerning network communications 
security. Now, it seems that you have changed the confidence in 
the deployed system at both Greely and Vandenberg. As I 
understand it, and staff tells me, your plans call for only one 
ground-based missile defense interception in this year we're in 
now, 2006. Is that right?
    General Obering. Sir, we have three more flight tests that 
we have planned. We know that two of those will be before the 
end of the calendar year 2006, based on our current 
projections.
    Senator Stevens. That's calendar 2006----
    General Obering. Yes, sir.
    Senator Stevens. One will be over in----
    General Obering. Yes, Chairman. One, most likely, will 
slide into the early part of calendar year 2007. We will be 
flying against targets in all of those flights. This next 
flight that will occur to--the mid part to the latter part of 
July, we will have a target, but the interceptor's not that 
primary objective of that mission, because this will be the 
first time that we are able to match the radar, the Beale 
operational radar, with the kill vehicle characterization, the 
seeker characterization. So, while an intercept could occur, 
it's not the primary objective. We will fly against a target 
later this fall which--in which an intercept will be the 
primary objective, and then we will also fly against a target 
in the third flight test, which, as I said, will probably move 
on into 2007.
    Senator Stevens. General Dodgen, is this system on alert 
right now?
    General Dodgen. Mr. Chairman, currently the system is not 
on alert, however, we do have some capability that we can reach 
and put up at the Nation's disposal, if called.
    Senator Stevens. Well, what unit has operational control, 
then, if it's not on alert?
    General Dodgen. I command the unit, sir, at Colorado and at 
Alaska, as an Army commander, and they are operationally under 
the commander of Northern Command, who is charged with our 
homeland defense.
    Senator Stevens. Well, then, operationally, General 
Obering, are you satisfied with the number of interceptors and 
the various assets you have, surveillance and capabilities? Is 
this system ready now?

                         OPERATIONAL READINESS

    General Obering. Senator, if we had to use the system in an 
emergency, as I've said before, I fully--I believe that it 
would work, based on what we have done to date in our testing, 
and that the previous testing we conducted with the actual 
intercepts using a prototype of the kill vehicle that we did in 
the 2000 to 2002 timeframe, that the recent tests that we 
conducted this past year do nothing--I mean, do a lot more to 
bolster our confidence in the system, as well, because we 
actually flew the operational configuration of the interceptor 
that we have in the silo, and we also, for the first time, used 
the actual track information from an operationally configured 
radar--in this case, Beale--as part of our flight test. And 
that--the results of those tests were actually much more 
encouraging than we had originally even planned. The accuracy 
of that radar track and the ability of the system to accept 
that met all of our expectations. So, I feel confident that the 
system would work, if necessary. And, as General Dodgen can 
tell you, all of the operators have been trained and certified, 
and are ready, in that regard.
    Senator Stevens. General Dodgen, you mentioned upgrading 
all of the Patriots to PAC-3 level. Is that funded?
    General Dodgen. It is not funded, Mr. Chairman.
    Senator Stevens. In this budget?
    General Dodgen. It is not funded in this budget.
    Senator Stevens. When do you intend to budget--fund it?
    General Dodgen. The reason it was not funded in this budget 
is, that we just did a recent review of our worldwide posture 
of the Patriot system, a review of Iraqi Freedom, and also the 
timeline to MEADS, which is the system of the future where we 
want to go. When we did this review with the chief, it became 
clear that our operational requirements overseas and the 
ability to operate succinctly and from different places, we 
needed the ``pure fleet.'' In other words, we needed to take 
our last three battalions and bring them to Config-3, where we 
were holding those battalions in Config-2 until MEADS came on. 
So, the chief made a decision a couple of months ago that we 
needed the ``pure fleet,'' and told us to do that by 2009. So, 
you'll begin to see that in the next budget cycle that we 
submit.
    Senator Stevens. Thank you.

                             AIRBORNE LASER

    General Obering, we're pleased with the report on the 
airborne laser. Is there enough money in this bill, the request 
of--for 2007, to meet the key milestones you have to meet, in 
terms of that program?
    General Obering. Yes, sir. And what we are shooting for 
there, of course--we will roll the aircraft out, here, in about 
1 month, with the tracking lasers installed and the atmospheric 
compensation lasers installed. We will begin a series of ground 
testing this summer, and then we go to flight testing in the 
fall with that aircraft, where we will use, initially, a 
surrogate of the high-energy laser to make sure that we've got 
the jitter and the beam control completely addressed. Then we 
plan to take the high-energy laser modules and move them on the 
aircraft, beginning in 2007, and shoot toward a lethal shoot 
down of a boosting missile in the 2008 timeframe. So, yes, sir, 
what we have funded in the program will get us to that.
    Senator Stevens. Well, you call for funding a second 
aircraft, modification of the 747. Is that in this budget, too?
    General Obering. Yes, sir. The--across our future year 
defense plan (FYDP), it is. We have not allocated the long-lead 
items for that second aircraft yet, because what we want to do 
is make sure that we were able to take all the results of this 
testing that we'll be doing in the next 2 years, and fold that 
into the design of that second aircraft. So, we want to make 
sure we've gotten all of the lessons learned, and we need 
basically what we call a design turn between that and the 
procurement of the second aircraft.
    Senator Stevens. But do you have enough money in this 
budget, now, to meet the needs for that second aircraft, as far 
as the program is concerned that you have scheduled for this 
fiscal year?
    General Obering. Based on the schedule that we have laid 
out, yes, sir, we have enough money to do that.
    Senator Stevens. Thank you very much.
    Senator Inouye.
    Senator Inouye. General Dodgen, we are very much encouraged 
by your success on the Aegis Missile Defense Program. Six out 
of seven intercepts is quite an impressive record. Assuming 
that the success continues, I would assume that it will be 
deployed. And, when that happens, who will be in charge--the 
Navy or will it be a national asset?
    General Dodgen. Of the SM-3 missile, Senator? The vision 
right now is that the Navy will man that system, and it'll be 
aboard the fleets. Currently, there are some missiles in 
Pacific Command (PACOM). JFCC is actually planning the command-
and-control relationships with the combatant commander to bring 
that capability into the family of ballistic missile defense 
systems. So, we're very encouraged by its performance. It has 
regional reach in its capabilities against these threats, 
combined with the Patriot system, and ultimately when the THAAD 
gets here, it'll be a tremendous combination of capabilities 
that we'll have in PACOM and in our other combatant commander 
regions.

              TERMINAL HIGH-ALTITUDE AREA DEFENSE PROGRAM

    Senator Inouye. You've mentioned terminal high-altitude 
area defense (THAAD). It's been very successful recently. 
You're going to be finishing your testing at White Sands. Where 
do you go from there?
    General Dodgen. Well, the testing done by the Missile 
Defense Agency, actually we are somewhat constrained, as I 
understand, by the testing that we do at White Sands, so we'll 
need more battle space in order to test against the threats we 
perceive for THAAD. And so, we'll go into the Pacific test 
range to do those things that we need to. General Obering could 
probably elaborate on that a little more, sir.
    General Obering. Yes, sir. We have a very aggressive 
program on track right now in our testing there. We will finish 
up the White Sands testing and then move out to the Pacific 
missile test range. Everything that we can see is on track. In 
fact, we have--the next flight will be tomorrow, of that 
system. And we're very encouraged by the progress that we've 
made to date.

                   KINETIC ENERGY INTERCEPTOR PROGRAM

    Senator Inouye. General Obering, 3 years ago your agency 
began the kinetic energy interceptor program. This is a 
multibillion dollar program that began as a boost-phase 
program. Over the last few years, the program has shifted. We 
have heard that it does everything from boost to midcourse to 
land and sea based, and it could be the replacement for the 
interceptors at Greely and Vandenberg. Can you straighten out 
the record and tell this subcommittee what MDA's intentions are 
for the KEI program?
    General Obering. Yes, sir. The KEI program started, as you 
said, 3 years ago, and it started at the recommendation of the 
Defense Science Board, because they felt that the airborne 
laser program, while it was very high payoff with respect to 
its directed energy, it was also very high risk from a 
technical perspective. And so, they recommended that we have a 
backup basically for the--for that program. So, what that 
indicated is that we needed a very, very high acceleration 
booster to be able to reach out in that boost phase, that very 
quick boost phase, to intercept the boosting threat missile. As 
we got into the program and we realized what that capability 
entails, that means that with that high acceleration, you also 
have a much-expanded footprint in a terminal role, for example, 
and you could also apply that in the midcourse, as well.
    So, what we're trying to do is be good stewards of the 
taxpayers' money. If we're developing this very high 
acceleration booster for the boost phase, could it be applied 
in other phases, as well, in other uses? The only thing you 
have to change is, you have to--you have to make sure that you 
integrated a different seeker as part of the kill vehicle. So, 
that's what we were looking for as--how could we exploit as 
much as we can of this capability?
    So, as it exists today, it is, in fact, still an 
alternative for our boost-phase defense. And if it pans out--
and it--we will know in fiscal year 2008, when we have planned 
for the first flight of that very high acceleration booster--if 
it pans out, then it could be applied to the other phases, as 
well. So, we're trying to keep an eye for the future to make 
sure that we have all of our bases covered. But what we're 
trying to do is take advantage of that very high acceleration.
    The other advantage it has is, it is a mobile missile. It 
is canisterized, and it is mobile. It is designed to be both 
land based and sea based. And, there again, you could take 
advantage of that mobile capability to be able to augment or 
bolster your overall ballistic missile defense system where you 
may need it worldwide. So, this is a system that you could fly 
into a location, for example, and provide long-range 
protection--coverage against long-range threat missiles and 
very high speed missiles. And so, it became very attractive 
from that perspective.
    But to make sure we've set the record straight, as you say, 
it is still our boost-phase defense alternative. We're still 
focused on the knowledge point in 2008, and then we will 
preserve our flexibility to determine what we would like to do, 
based on the achievement of those knowledge points.
    Senator Inouye. Is the funding request sufficient to keep 
this on track?
    General Obering. Yes, sir. The President's budget request 
is sufficient to keep this program on track.

                            COUNTERMEASURES

    Senator Inouye. One of the most difficult challenges facing 
the program is developing methods to overcome enemy 
countermeasures. There have been suggestions that we are 
building a very expensive system that can be foiled by an 
inexpensive countermeasure. How do you respond to that?
    General Obering. Well, first of all, Senator, the system 
that we're fielding today does not have a robust capability 
against very complex countermeasures, as we have stated in the 
past. However, the systems and the components that we're 
bringing online this year, for example, and the work that we 
have, being able to net together the sensors, and the 
algorithms that we've developed to install those in these 
sensors, get us very far down that path to be able to meet that 
very complex threat.
    In addition, we have a very important program that we call 
the Multiple Kill Vehicle Program. And what that does is, it 
takes a single interceptor and enables it to destroy multiple 
credible objects, so that you can handle the much more complex 
countermeasures and the much more complex threats suites that 
we may face in the future. And so, we are very much 
appreciative of that, the challenge that that represents. We, 
by the way, have probably these nations' leading experts in 
countermeasure, in counter-countermeasure technology. We have a 
very robust countermeasure test program. We actually fly 
missiles with very complex countermeasures on them, and we test 
our radars' and our sensors' capability to discriminate and to 
sort through those. And that's all part of this program. We 
want to make sure that we are not fielding a system that will 
only work against very simple threats, that we are, in fact, 
keeping an eye toward the future and keeping an eye for the 
robustness of this. And I'm very encouraged by what we have 
done in that area.
    Senator Inouye. And your funding request is sufficient to 
carry out this program?
    General Obering. Yes, sir, as long as we get the 
President's budget request, especially for the Multiple Kill 
Vehicle Program, which is that catchall, so to speak.
    Senator Inouye. Mr. Chairman, may I request that my other 
questions be submitted?
    Senator Stevens. Yeah. I'd appreciate it if you'll respond 
to the questions that are just submitted to you in writing.
    Senator Inouye. Thank you very much.
    General Obering. Yes, sir.
    Senator Stevens. Senator Shelby.
    Senator Shelby. Thank you.

             GROUND-BASED MIDCOURSE DEFENSE QUALITY CONTROL

    General Obering, a recent Government Accountability Office 
(GAO) missile defense report raised some doubt about the 
quality of the GMD kill vehicles. What actions have you taken 
to ensure that our ground-based midcourse interceptors are 
highly reliable?
    General Obering. Well, Senator, first of all, we have 
revamped the way that we are doing quality control across the 
program, and especially for the GMD, the EKV program.
    Senator Shelby. It's paid off, too, hasn't it?
    General Obering. Yes, sir, it has. In fact, the initial 
report--or the reports that I've got back as recent as just a 
couple of weeks ago about the changes that have been made now 
in the production facilities, for example, in Tucson and other 
areas, are very, very encouraging. We think that we've gotten 
over the hump there.
    What it primarily had to do with, by the way, is making 
sure that we had accountable engineering processes being 
applied, and we had folks accountable for the individual tail 
numbers that were going through the facility, and that we also 
had a much stronger supply-chain management approach to be able 
to control the quality of the vendors and the suppliers, and 
all of that is in place. We've also deployed more than 24 
mission assurance representatives across the Nation in these 
facilities, working day to day with the contractors. And so, in 
fact, I've had at least one CEO of a major defense corporation 
say that our mission assurance program is the best he'd ever 
seen, and he's actually incorporating that as part of his own 
internal documents.

                   KINETIC ENERGY INTERCEPTOR PROGRAM

    Senator Shelby. I'm glad to hear that.
    General Obering, the MDA budget request of $9.3 billion not 
only supports fielding missile defense capabilities, as you 
well know, but also funds the development of advanced 
technologies to make missile defense more robust and more 
effective. I believe our national defense needs to fully fund 
technology development in order to remain in front of the 
threat. One program currently threatened with cuts in the 2007 
budget, as I understand it, is the Kinetic Energy Interceptor 
Program. Would you address how KEI makes missile defense more 
robust? And what is the impact to the ballistic missile defense 
system if this program isn't fully funded?
    General Obering. Well--yes, Senator----
    Senator Shelby. To you both.
    General Obering. Yes, Senator. As I mentioned earlier, that 
is our program, which is an alternative to the airborne laser 
program. While both of those programs are currently on track, 
we won't know until we reach the knowledge point, in 2008, as 
to whether we can actually lethally shoot down a boosting 
missile with the airborne laser, and whether we can attain the 
very high acceleration that we need out of that KEI program. 
So, if we were to sustain the cuts that have been proposed for 
the KEI program, it removes that flexibility, number one, and 
it prematurely forces us to----
    Senator Shelby. You need that flexibility, do you not?
    General Obering. Yes, sir, because I can't tell you right 
now with confidence that the airborne laser could be an 
operational system. We may be able to technically shoot down a 
missile, but it may not be operationally viable, and we have a 
long way to go there. And it's making great progress, but I 
would not like our options limited too prematurely at this 
point.
    Senator Shelby. How much more money would you need for 
this, with this particular program?
    General Obering. Well, Senator, the President's budget 
request for 2007, I think, is about $386 million for the KEI 
program, and we need all of that.
    Senator Shelby. Need all of it.
    General Obering. Yes, sir.

                     MULTIPLE KILL VEHICLE FUNDING

    Senator Shelby. The multiple kill vehicle, as both of you 
know well, an initiative to provide increased effectiveness 
against potential countermeasures during midcourse engagement. 
It's presently under development. The 2007 request of $164 
million is a considerable increase from the 2006 request of $82 
million. General, will you be able to execute the funding of 
this requested increase? And what progress in MKV do you expect 
to realize in 2007? I think this is progress here, but what do 
you plan to do with it?
    General Obering. Yes, sir. Well, we actually have laid a 
divert and attitude control system test in the 2007 timeframe 
for that program--again, a key knowledge point for the program. 
We have transitioned and moved the management of that program, 
by the way, from the Washington area down to the Huntsville 
area, in terms of how we're executing that management. And so, 
I have no doubt that we'll be able to fully leverage the money 
that we've requested to be able to get us to--the next 
knowledge point is a hover test of that vehicle in 2009. And, 
again, as I mentioned with Senator Inouye, it is very, very 
important to be able to address emerging threats that we may be 
faced with in the future.
    Senator Shelby. Thank you.
    General Dodgen, the 2007 budget request includes proposed 
funding for long lead items necessary for GMD interceptors 41-
50. From your warfighter perspective, General, what would these 
additional interceptors provide, in terms of an increased 
ballistic missile defense capability? Is this request 
warranted? Do you need it?
    General Dodgen. Senator, I think they're very much 
warranted. I think the missile count, as strategically located 
as Fort Greely is----
    Senator Shelby. Absolutely.
    General Dodgen [continuing]. To go east and west----
    Senator Shelby. Sure.
    General Dodgen [continuing]. It's all about how many rounds 
you have in the ground, and the reach of those particular 
rounds. And our shot doctrine calls for us to use potentially 
more than one interceptor against a warhead. And so, we 
potentially could use every one of those rounds.
    Senator Shelby. That's just smart, isn't it?
    General Dodgen. It is smart. We have, in addition to that, 
our joint capability-mix studies played those full inventories 
of munitions and verified that we'll need every one of those 
rounds for the threats that we'll be facing.
    Senator Shelby. Well, you can't afford to be too thin when 
you're defending something, can you?
    General Dodgen. That's correct, sir.
    Senator Shelby. Thank you, Mr. Chairman. I might have some 
additional questions for the record.
    Senator Stevens. Thank you very much.
    Senator Burns.
    Senator Burns. Thank you, Mr. Chairman.
    I want to dwell on just a little bit of the development of 
the entire system and where we're going and to complete the 
mission. I've had an opportunity to visit facilities, as you 
well know, and also it appears to me, when we dwell on the 
development, I think, of the Patriot, the PAC-3, in the--and 
the Navy SM-3. We're not only developing a tactical weapon, but 
now--we have a weapon now that could probably go strategic as 
this develops out.
    I have some concerns about it, because I'm from Montana, 
and if you guys miss, you put us into business----
    Senator Stevens [continuing]. Up there. And so, we're--as 
those--these systems--can you comment on how you're using these 
multiple parallel paths, really, to create a competition or 
synergy for our ground-based terminal missile system programs, 
because we understand that competition does create a certain 
synergy, and how those two programs play out? General Obering, 
I--yes.

                            LAYERED DEFENSE

    General Obering. Yes, sir. Well, first of all, we are 
designing the system so that we have layers of defense that 
work together, so we can take a sea-based interceptor, like the 
SM-3, and the radar with the aegis program, and integrate that 
into the long-range defense system that is based in Alaska, 
California, and, of course, Colorado Springs. And so, it is 
designed to work together to be able to integrate these 
capabilities and greatly expand the detection and engagement 
zones over what we would have individually.
    Now, what you're referring to in the multiple paths is 
that--for example, with airborne laser and the kinetic energy 
interceptor, we have options that we can execute within the 
boost phase--in the boost phase, for example, to be able to 
make sure that we don't have all our eggs in one basket. And 
that's why I think it would be premature to cut either one of 
those programs until we get to those knowledge points.
    We also have laid in several midcourse capabilities against 
the long range and the Aegis, for example, with the shorter-
range threats. We have planned and have funded in the budget 
the ability to engage the longer-range threats with the sea-
based interceptor and the midcourse, as well. That's our SM-3 
block-2 capability. So, where we can, we like to make sure that 
we have options and flexibility. And we also are integrating 
all of these capabilities together to ensure that we get the 
most that we can out of the system.
    Senator Burns. Well, you were going down the path where 
each one of them sort of had their niche.
    General Obering. Yes, sir.
    Senator Burns. General Dodgen could probably address that.
    General Dodgen. Sir, I would add to that by saying, 
operationally, what we're doing is divorcing sensors from their 
normal role as a system and using them across all the systems 
we have so that multiple sensors can shoot different 
interceptors. When you do that, first of all, you probably 
don't need as many systems. That's what the joint capability-
mix study is telling us. And, second of all, you bring great 
flexibility in the ability to adjust the system for a 
particular threat and in a regional fight. So, we definitely 
plan to integrate the SM-3 missile onboard ships, with THAAD, 
and with Patriot in the regional fight, and some of those same 
sensors will be feeding the GBM system that's at Fort Greely 
and gaining great significance to that. And we're about dealing 
with the command and control to make that all work succinctly 
for the future.

                             ARROW PROGRAM

    Senator Burns. Let's talk about sharing of technology a 
little bit. I think most of us are pleased with the success of 
the Israeli Arrow, that missile in this past year. In fact, 
they had a pretty successful shoot the other--about 1 month 
ago, I understand. This subcommittee has funded that technology 
development with the Israeli Missile Defense Agency, and we're 
pleased that their system is really improving its capability, 
in light of recent developments in Iran. We--you know, it may 
play a larger role than we really think right now.
    Would you care to comment on the benefits of funding the 
Arrow program to your agency? And how has the sharing of 
technology--has it enhanced what we're trying to do here?
    And either one of you can----
    General Obering. Yes, sir. Well, first of all, we've 
learned an awful lot collaboratively together, working with the 
Israelis. We have a series of exercises that we execute with 
them on an annual basis that we learned even more. It played 
out very well in Operation Iraqi Freedom, where we actually had 
integrated and combined the Arrow system with the Patriot 
system to be able to provide coverage during the Operation 
Iraqi Freedom. But we've also, as you say, enjoyed the 
technology benefits. We've actually been able to incorporate 
some of the developments on the Arrow program back into other 
interceptor programs within the Missile Defense Agency. We 
continually do that. We continue to look at their advances in 
software, advances in human/machine interface, and those types 
of things, to see what advantages that we can take. So, it very 
much is a collaborative effort. And, of course, we need that 
even more so in the future as we expand the opportunities for 
missile defense cooperation. And we have several countries that 
are very much interested across the world, and that continues 
to grow almost on a weekly basis.
    Senator Burns. Well, I've had the opportunity to visit not 
only what they're doing there, but also what we're doing down 
in the South Pacific, General. And we stopped in down there 
in--now, let's follow up on that. How positive has it been with 
our North Atlantic Treaty Organization (NATO) friends? What--
and especially fielding the Joint Tactical Ground Station, the 
JTAGS--have we had the same kind of cooperation with our NATO 
friends?
    General Dodgen. Of course, I command the JTAGS, and----
    Senator Burns. Yes.
    General Dodgen [continuing]. Right now they're positioned 
with the combatant commanders to provide early warning for 
those forces. And we have a JTAGS located in Stuttgart with 
European Command (EUCOM). That early warning has been provided 
to our allies in some regard. And so, there is a great deal of 
cooperation there.
    Senator Burns. Are they holding up their share of the 
funding?
    General Dodgen. Well, the funding's totally United States 
at this particular time, but I think I'm encouraged by the fact 
that NATO is beginning to step up their missile defense 
efforts, and, to the most part, start to study and actually 
come forward with some recommendations as to what they want to 
field. They're certainly not where we are in missile defense, I 
would say, but they're certainly talking with us at the 
military level.
    Senator Burns. Well, I get the feeling, you know--we're 
really stretched for money, you know, in funding some of these 
programs, and I'm starting to ask myself, Why should we be 
funding their programs? The American taxpayers should know why 
we're doing that. Is there a reason? Because it is costly.
    General Obering. Senator, if I could address, from a 
different geographic area, Japan, we have entered into a co-
development program pending Japanese approval, for a block-2 
SM-3. And that is a--an equal share in the costing of that, 
which is great for us, and great for Japan, because we are able 
to get that capability, basically, at half the investment to 
the United States. So, that is, I believe, the model, and is 
something that we are very much interested in, in other 
programs, as we proceed in the future, too, to be able to 
leverage our allies.
    General Dodgen. I would add to that, that certainly other 
NATO nations have the Patriot system, like we do. And we have a 
great operational cooperation with them in their systems, in 
their force. Germany and The Netherlands and now the Greeks all 
have Patriot, and Spain is procuring a system. In addition to 
that, we're partners in MEADS with the Germans and the Italians 
to develop the next generation. But those are the short-range 
terminal systems, and cooperation in the longer-range systems 
is something that will be forthcoming, I believe.
    Senator Burns. Well, the reason I asked the question is 
because we have--at the present time, we are facing an enemy 
that offers none of those kind of weapons that would endanger 
our security, both to our troops that are deployed, in the 
Middle East or wherever, or our domestic security. And so, we 
have to look at those. Should we be funding these systems, when 
basically we're in support of boots on the ground, so to speak? 
I come from a different mentality. I served in the Marine 
Corps, and so my mentality is the support for the troops that's 
on the lines, so to speak. And so----

                            MISSILE DEFENSE

    General Obering. Senator, one thing I'd like to address 
there is, this missile defense, as you started out your 
statement, about the overall system----
    Senator Burns. Yes.
    General Obering [continuing]. It is designed not just to 
defend the United States, but also our deployed forces. And, as 
you know, they are deployed worldwide. And, as these ballistic 
missile threats continue to proliferate, I think it's important 
that we do provide that protection, whether they be from the 
shorter-range missiles, as well as the longer-range missiles, 
because, as we say, as we see this threat evolve, they will 
reach those capabilities. And that's why we're trying to expand 
out the umbrella of our defensive coverage to be able to give 
ourselves that flexibility and to prevent a nation--a threat 
nation from either coercing or threatening our allies or 
ourselves, so we can do something about the ballistic missiles 
that could be married with a weapon of mass destruction.
    Senator Burns. Well, I think the American taxpayer would 
thank you for that answer. I agree with you, but those are 
questions that come up, you know, when we talk about the 
security or the support of our troops on the ground. I have 
concern for those men and women, because they are really 
standing in harm's way. I thank you for your answer.
    General Obering. Thank you, Senator.
    Senator Burns. Thank you, Mr. Chairman.
    Senator Stevens. Senator Cochran, do you have questions, 
sir?
    Senator Cochran. Mr. Chairman, thank you very much. And let 
me join you and other members of the subcommittee in welcoming 
our witnesses to the hearing today.
    We have a genuine need for continuing to support a strong, 
robust, workable missile defense system across a broad range of 
threats that we see that are present today and that are 
evolving for future concern--and give us concerns for the 
future, as well. These are big, complicated, challenging jobs 
that you have, and we appreciate the dedication and the efforts 
that you are making to discharge your responsibilities and help 
carry out these important activities in the development and 
deployment of missile defense systems. So, thank you. That's 
the first point I want to make.
    Second, it appears that we are making good progress in 
developing technologies, improving old technologies, in helping 
stay ahead of the curve. And I think that investment of dollars 
is very important. We need to be careful not to waste money. 
And you realize that. We're concerned about keeping spending 
under control, making sure we're getting what we pay for.
    And, in that connection, I was interested in your 
observations about some of the programs I know that you've 
already talked about, the airborne laser and some of the other 
programs, maybe the kinetic energy interceptor, which are still 
under development, but with hope that we can deploy systems of 
this type to help ensure that we have the best possible 
protection.

                          COMMAND AND CONTROL

    Now, one thing that I was curious about is the command and 
control infrastructure. You're developing an integrated 
ballistic missile defense system, but the infrastructure of 
command and control is very important. I wonder what your 
assessment--of this is at this point. General Obering, could 
you give us an update or an overview on the progress you are 
making in integrating command and control capability for 
missile defense?
    General Obering. Yes, sir, be happy to.
    First of all, I have to say that I am extremely pleased 
with the progress that we have made in that area. If you stop 
and think about it, there's no other mission area that I'm 
aware of where you have to get simultaneous situational 
awareness across as many as 11 time zones or more, across the 
various combatant commanders and the geographic commanders, 
again, simultaneously, do the deconfliction and to the battle 
management that will have to be done in the missile defense 
arena, which is a--very much of a challenge.
    But, in fact, we have tackled that. We have rolled out a 
capability that is currently not only here in the National 
Capital but also at Omaha, at STRATCOM, at U.S. Northern 
Command (NORTHCOM) in Colorado Springs, out at PACOM, in 
Hawaii. We have plans to also continue to expand into EUCOM and 
U.S. Central Command (CENTCOM) and to give those capabilities--
those commanders that capability, as well. And so, from a 
command and control perspective, I think the program is very 
much on track.
    We have requested--the money we have requested in the 
President's budget is important for that work. It is important 
to continue that, because that is the heart and soul and the 
brain of the system. We can't do the necessary integration, as 
General Dodgen mentioned, of the sensors and the interceptors 
that we mentioned earlier, without that capability. And this is 
truly a force multiplication effect. For example, if we can 
integrate a land-based radar using this command and control and 
battle management capability with sea-based interceptors, you 
cut down on the number of ships that you need to provide 
protection for a given defended area dramatically. And that 
same effect happens over and over again through the system, 
where you can do this mixing and matching of sensors with 
weapons. And so, we think that it is very, very important.
    So, I think that the money that we've asked for this in the 
President's budget for 2007 is very much--is very important and 
very critical to the program.
    General Dodgen. Senator, could I add to that?
    Senator Cochran. Yes, please.
    General Dodgen. The command and control for the initial 
capability that we fielded in Fort Greely, Alaska, what we've 
called limited defensive operations, very mature tactics have 
been taught through, the foreign doctrine is there, the command 
and control through Northern Command is there. What we're about 
now in a JFCC is expanding that globally through the other 
combatant commanders. And what we do is, we understand the new 
capabilities, such as the sea-based SM-3 capability and when 
the THAAD comes on. We bring the warfighters in from PACOM and 
EUCOM. We fight the system in games. We develop a concept of 
how we're going to operate. We validate that concept. And then 
we feed those means in which we want to operate in terms of 
functionality to MDA, so that they can produce the command and 
control battle management communications (C2BMC) terminals that 
will populate the geographical combatant commanders. That 
process is just starting to go globally. And the funding will 
put that functionality into those command and control terminals 
that we'll use to fight the global fight.
    Senator Cochran. That leads me to my next question, which 
is about international cooperation. It's important for us to 
maintain a spirit of cooperation in order for us to deploy 
radars and other capabilities around the world that make the 
whole system work. At Fylingdales, for example, we have the 
radar there that England has permitted us to continue to use. 
Are there any other examples of problems that we're having in 
the international area?
    General Dodgen. Sir----
    General Obering. Well, sir, in terms of the overall--not 
only situational awareness, but the willingness to cooperate 
and to collaborate in missile defense, I have seen that 
dramatically increase just in my tenure as director of the 
Missile Defense Agency.
    To give you just one little anecdotal metric there, we 
cohost a missile defense international conference every year. 
The last one was held in Rome, last September. We had over 
1,000 delegates at this conference. We had more than 20 nations 
represented there. And we see an upswell of interest and of 
cooperative effort across the board. We have countries, like 
you said, the United Kingdom, who are working with us and 
hosting radar sites and allowing us to be able to use that 
information with respect to the missile defense system. We have 
countries like Japan who are investing their own money, 
significant amounts of it, over $1 billion a year, in missile 
defense, and are working with us not only procuring systems 
from us, but also co-developing new systems with us. And so, 
across the board, I see a dramatic increase in that 
collaboration and that cooperation.
    But I think it's only reasonable, in light of what we see 
happening with the threat. We know that there is a lot of 
activity, nearly 80 missile launches last year around the world 
in the threat communities. We know that this proliferation 
continues. We know it is a weapon of choice. When you marry it 
with a weapon of mass destruction, the ballistic missile 
becomes a convenient delivery vehicle, whether you're talking 
about short range or long range. And so, I think it's not only 
important, I think it's critical that we get this continued 
international development and cooperation.

                   EXPENDABLE LAUNCH VEHICLE PROGRAM

    Senator Cochran. One of the essential parts of this entire 
process is maintaining intelligent satellites and launching 
these satellites. You have the Evolved Expendable Launch 
Vehicle Program, which has produced a couple of families of 
capability. These have had only a few initial launches. But you 
were hoping to reduce the overall cost by agreements with 
commercial customers who are likewise interested in these 
capabilities. Tell us what the status of that is and what you 
foresee as the need, in terms of budget requirements, funding 
of this Expendable Launch Vehicle Program.
    General Obering. Senator, I don't have the Expendable 
Launch Vehicle Program. If you're referring to--I have the 
Multiple Kill Vehicle Program. I also have the space tracking 
and surveillance system programs. But the Expendable Launch 
Vehicle Program is an Air Force-run program. We benefit, 
obviously, from launch services that could be provided for our 
space satellites when we are getting ready to deploy those and 
getting ready to put those up.
    Senator Cochran. So, this is not a part of your budget 
request.
    General Obering. No, sir.
    Senator Cochran. I understood that $937 million is being 
requested in the budget for the Evolved Expendable Launch 
Vehicle Program.
    General Obering. No, sir, not for Missile--
    Senator Cochran. But that's not----
    General Obering [continuing]. Defense.
    Senator Cochran [continuing]. Your budget----
    General Obering. No, sir.
    Senator Cochran [continuing]. Request. That's Air Force----
    General Obering. It's not mine, sir.
    Senator Cochran. Okay.
    Thank you very much, Mr. Chairman.
    Senator Stevens. Thank you, sir.

                         X-BAND RADAR SECURITY

    General, the radar--the X-band radar, Shemya--or, no, the 
radar at Shemya, and the sea-based X-band radar, are going to 
be part of this system. I'm--as you know, I'm fairly interested 
in that. They're going to be, obviously, targets now. Would you 
care to discuss the security situation of those targets, or 
would you like to do it in closed session?
    General Obering. Any details of that, Senator, I'd prefer 
to do that in closed session. But I will tell you that we do 
have what we consider to be adequate security and force 
protection measures that we've employed on those--on the 
platform, on the sea-based X-band radar. We have security 
arrangements that we've--that we have procured for the Cobra 
Dane radar, as well. I am working with General Dodgen and 
STRATCOM and the combatant commanders, because the force 
protection responsibilities, especially in an operational 
environment, fall under the combatant commanders' 
responsibility--area of responsibility. And we're working with 
them to make sure that we have what is considered to be 
adequate force protection for the future, as well.
    But I would prefer the details of that to be in a closed 
session, if you don't mind.
    Senator Stevens. Well, we'll respect that, of course. We'll 
look forward to having a closed session, discussing some of 
these activities later this year.
    General Dodgen, when is this X-band radar going to 
transition to operational status?
    General Dodgen. It will do that later this year. I 
believe--I don't know what the exact month--is it December? 
It's going to leave Hawaii and go through some more trials up 
in the Adak region. Primarily, the software build that we're 
going to put into the GMD fire control (GFC) system will allow 
this radar to be used by the interceptors, will be tested and 
validated in those particular times. So, it won't just be the 
platform that'll be tested. It will be the command and control 
system that's going into the GFC now that will be tested by the 
operators and when I say the ``operators,'' I mean the soldiers 
at Fort Greely, Alaska, will verify this system. And all 
that'll be done before it's actually placed into the system on 
alert later this year.

                            SEA BASED X-BAND

    General Obering. And, Senator, if I may, we have had the 
radar in the vicinity of Hawaii for the past several months. We 
have been doing some corrosion control work on the platform. 
And then, we motored it off the coast to begin the radar 
calibration test, and we actually--I got a report this morning 
that we've completed that activity. So, we'll be coming back 
in, and then we'll be making our way--after a thorough review 
of readiness, we'll be making our way up to Adak, Alaska, in 
the next month or so.
    Senator Stevens. Well, I want to chat with you about it. 
I've been invited to participate in something in August 
pertaining to that X-band radar, and I was surprised, because I 
didn't expect it to be in our waters until later this year.
    General Obering. No, sir. It will be up in Alaska, should 
be there this summer, and then we will----
    Senator Stevens. It will be there this summer?
    General Obering. Yes, sir. And then, we will use the 
remainder of the time to complete its integration from that--
from the location near Adak into the system, do the full 
checkout using those satellite transponders, et cetera. And 
then we'll be available for operations this year, as General 
Dodgen said.
    Senator Stevens. You intend it to be in Adak sometime this 
summer?
    General Obering. Yes, sir.
    Senator Stevens. Do you know a time--any timeframe for 
that?
    General Obering. I will take that for the record and get 
back to you, but I believe it is in the latter part of July.
    [The information follows:]

    The SBX is currently scheduled to depart the Hawaii 
Operational Test Area upon completion of X-Band Radar 
Calibration testing, and will arrive at its loitering location 
50 nautical miles off Adak, AK in late summer.
    The MDA Mission Readiness Task Force, at Lieutenant General 
Obering's request, recently chartered an independent review 
team consisting of retired Navy and Coast Guard admirals, 
senior naval architects, and semi-submersible oil rig experts, 
to assess SBX operational viability with a focus on operations 
in the Bering Sea. The agency will implement some of the 
recommendations in the Hawaii region as well as perform low-
level repairs and maintenance required from calibration testing 
prior to departing for Adak.
    XBR calibration is scheduled to be completed in August, 
2006.

    Senator Stevens. Well, that fits in with the request I have 
had, then. Thank you.
    I was surprised. I didn't think it was going to be there 
that early.
    Well, gentlemen, I want to tell you that I, personally, am 
very pleased with everything I've heard about this, and I'm 
very pleased with the activities of the National Missile 
Defense Support Group that's out there, with Ricky Ellison. And 
I congratulate you on the way your information is being 
disseminated throughout the country about the importance of the 
program and how it's proceeding. I really think it meets up 
with the basic expectations we've had.
    I will tell you that we'd like to talk to you a little bit 
later about some of the aspects of this program. I think that 
it would be best to do that in that closed session we're 
talking about, in terms of how this money is going to be 
allocated.
    Do you, Senators, have any further questions?
    Well, we do thank you very much. And, again, we 
congratulate you. I think the decision to deploy these missiles 
while they're still in the development phase, has proven to be 
a wise decision, and we'd look forward to your keeping us 
advised on the schedule of further developments in the system.
    I failed to ask you about the Kodiak connection. Do you 
have anything scheduled with regard to the Kodiak launching 
system during this year?
    General Obering. Yes, sir. In fact, the targets that I 
mentioned earlier that we will be flying in our next series of 
tests next week, those targets will be launched from Kodiak. 
And I have to tell you that we've been very, very pleased with 
the performance and cooperation there.
    Senator Stevens. That's proved to be a very good place for 
that activity, and we're delighted that you're there.
    And we do thank you for your testimony. And----
    Senator Shelby.
    Senator Shelby. I just want to add something to what you 
said. I think General Obering and General Dogden both, their 
respective commands, Mr. Chairman, are showing real leadership 
and resourceful for the Nation. And this ought to be 
recognized.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Stevens. You're right, and I'm particularly 
pleased, as I said, with the transparency. I think everywhere I 
go, people have asked about it, and they've been stimulated by 
the appearances that you and so many members of your command 
have made throughout the country. So, it's very good to have 
that kind of transparency in a program like this.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

Questions Submitted to Lieutenant General Henry A. ``Trey'' Obering III
               Questions Submitted by Senator Ted Stevens

    Question. Over a year ago, the Graham panel recommended 
intensifying your flight and ground testing, while recently the 
Inspector General pointed out issues with your network communications 
security. How has your confidence in our deployed system, including the 
interceptors Fort Greely and Vandenberg, changed? Your plan calls for 
only one ground based missile defense intercept test in fiscal year 
2006; are you comfortable with that level and rate of testing?
    Answer. The Missile Defense Agency's confidence in our deployed 
BMDS is growing. If the deployed system were called upon in an 
emergency we believe that it would work based on the testing we have 
conducted to date. Recent tests conducted over the past year bolster 
our confidence as we have successfully flown the operationally 
configured interceptor. We hope to gain further confidence in our 
system's capability when we conduct an intercept flight test with an 
operationally configured GBI later this year.
    We are successfully executing our plan of continued laboratory and 
distributed asset testing at the component and system level, and are 
conducting a regimented flight test schedule with well-defined entrance 
and exit criteria in accordance with the recommendations of the 
Independent Review Team (IRT) and the Mission Readiness Task Force 
(MRTF). We have instituted a stringent pre-mission ground test program 
prior to our Ground Based Midcourse Interceptor flight test missions 
which allows us to fully exercise the ground components at Fort Greeley 
and Vandenberg prior to a flight test event. In addition, we have 
successfully demonstrated the ability to launch, fly and separate the 
Ground Based Midcourse Interceptor's Exo-atmospheric kill vehicle, 
thereby validating the modifications we made after previous flight 
tests. We have also recently conducted live tests of other key BMDS 
assets demonstrating the system's ability to detect and track live 
targets in flight using operational sensors, operational networks, and 
our operational battle management and fire control nodes.
    Our disciplined path to returning to a flight program required 
specific technical criteria to be met before the flight test could 
occur. This approach limited us to one intercept flight test in fiscal 
year 2006, but provided us with key insights to bolster confidence in 
each and every subsequent event. We plan to maintain this strategy as 
we strive to increase the flight test tempo in subsequent years, 
improve integration of Information Assurance (IA) Controls, and believe 
that this strategy helps balance the technical risks with additional 
confidence that comes from testing in more stressful intercept 
environments.
    Concerning the Department of Defense Inspector General (DOD IG) 
report on the Ground Based Midcourse Defense Communications Network 
(GCN), MDA is confident that the GCN will continue to perform safely, 
securely, and efficiently when called upon to defend this nation, our 
friends and allies against missile threats. The IG recommendations are 
matters that need attending to, and are being appropriately addressed.

                      GROUND-BASED MISSILE DEFENSE

    Question. I'm pleased that the airborne laser has made technical 
strides during the last year. Will this program have the funding to 
meet its key milestones in 2007?
    Answer. The program has sufficient funding to accomplish the 
projected milestones in 2007. ABL is a high-risk/high-payoff program 
based on cutting edge technology in developing and integrating advanced 
optics and lasers on a flying platform. The program has made 
significant progress by successfully demonstrating long-duration lasing 
at lethal power levels in ground tests and completing flight testing of 
the integrated beam control/fire control and battle management systems 
on board the ABL prototype aircraft. The program is following a very 
aggressive schedule to complete both ground and flight tests of the 
beacon and tracking illuminators (including demonstration of 
atmospheric compensation) before the end of CY 2006, and completion of 
low power system testing in CY 2007, while the high energy laser 
component is refurbished in preparation for installation on board the 
aircraft in CY 2007. All these efforts are leading up to a lethal 
shoot-down of a ballistic missile in the 2008 timeframe.
    Question. Fielding Aegis and Ground Based Midcourse Defense are 
priorities for this committee. Can you assure this committee that the 
Missile Defense Agency has adequate resources allocated to the testing, 
fielding and operational aspects of the current system before embarking 
on the development of new capabilities?
    Answer. I share your views on the importance of fielding the 
Ground-based Midcourse and Aegis BMD elements of the Ballistic Missile 
Defense System (BMDS).
    In fiscal year 2007 we plan to continue the incremental fielding 
and sustainment of Ground-based Midcourse Defense interceptors; 
additional SM-3 missiles and upgrades to Aegis BMD ships; and the 
supporting sensors, command, control, battle management and 
communication capabilities required to integrate these interceptors 
into the BMDS. We have been steadily increasing the operational realism 
of Aegis BMD flight tests leading to deployment of a certified tactical 
capability later this year. In Aegis BMD, the Navy's Operational Test 
and Evaluation force is conducting concurrent testing as part of Aegis 
BMD flight test missions. We will also be pursuing a comprehensive and 
integrated approach to increasing the operational realism of our GMD 
and BMDS flight tests as well as making our ground testing program more 
robust. At the same time, we are not wavering from our commitment to 
sustaining these systems once they are in the field.
    The resources included in our fiscal year 2007 President's Budget 
request, as well as throughout the FYDP, are adequate to support our 
fielding, sustaining and testing commitments. Currently, we are 
fielding missile defense assets about as fast as we can and I can 
assure you that our budget request represents an appropriate balance 
between providing near term missile defense capabilities and preparing 
for the emerging threats of the future through our evolutionary 
development programs.
    Question. The radar at Shemya and the sea based X-Band are key 
elements of the ground based missile defense system. As such, they are 
likely high value targets in the initial phases of an attack. Does the 
Missile Defense Agency plan to protect these assets from our 
adversaries? Can you provide us that plan in a classified session?
    Answer. The overall protection strategy for the Cobra Dane Radar on 
Shemya Island, Alaska and the Sea-Based X-Band (SBX) is based upon an 
assessment of the current threat, the application of security measures 
to deter identified threats and appropriately protect the radar and 
personnel, and the Combatant Commanders planned response to actual 
threats.

Cobra Dane
    U.S. Strategic Command (USSTRATCOM) Strategic Directive 538-2, 
``Global Ballistic Missile Defense Systems (GBMDS) Physical Security 
Program'' directs protection standard at the SSL-A level. This 
specifies protection commensurate with assets for which loss, thefts, 
destruction or compromise would cause great harm to the strategic 
capability of the United States. Cobra Dane does not currently meet all 
SSL-A protection requirements. Remoteness of the asset, severe weather 
conditions, and cost vs. risk are considerations being evaluated 
towards a decision to properly updated existing security. MDA is 
working with USSTRATCOM and Pacific Air Forces (PACAF) to conduct a 
security assessment and develop a risk mitigation plan to identify 
security systems suitable for the Eareckson environment, including 
enhanced security for the Cobra Dane radar.

SBX
    SBX is currently protected as a System Security Level-A asset in 
accordance with DEPSECDEP direction, as implemented by U.S. Strategic 
Command (USSTRATCOM) Strategic Directive 538-2. USSTRATCOM has endorsed 
MDA security and force protection measures as consistent with 538-2 for 
SSL-A.
    Geographic Combatant Commands (GCC) are responsible under the 
Unified Command Plan (UCP) for force protection oversight of SBX-1 when 
operating in their area of responsibility. While MDA is responsible for 
antiterrorism/force protection (AT/FP) of the vessel, the GCC is 
responsible for responding to attacks by adversaries during increased 
threats/wartime. Based on the Force Protection Condition (FPCON) and 
current intelligence, GCCs will direct assigned forces or request 
additional forces to protect the SBX operations, as required.
    Question. Your agency is in the initial development stages of the 
Kinetic Energy Inteceptor, which appears to offer improved performance 
during boost and ascent phase engagements. For commonality, 
supportability, and cost have we examined all avenues of improvements, 
or modifications, to the existing ground based interceptors to provide 
this capability?
    Answer. The Missile Defense Agency did examine the possibility of 
improving or modifying the existing Ground-Based Interceptor to enable 
boost and early ascent phase defenses prior to starting the Kinetic 
Energy Interceptors program in 2003. What we and multiple industry 
teams determined is that a mobile, fast-burning, high acceleration 
booster capability is required to meet boost/ascent phase mission 
requirements. The Kinetic Energy Interceptor booster has approximately 
three times the acceleration of a Ground Based Interceptor with a 
similar payload volume and weight capacity. The Kinetic Energy 
Interceptor is also half the weight of a Ground Based Interceptor; its 
physical size (length and diameter) is constrained to allow rapid 
transport on a C-17 aircraft and future integration on a sea-based 
platform. The only way to achieve this mobile weapon capability is to 
design, develop, integrate and test new booster motors. The development 
of this unique booster vehicle capability is the primary focus of the 
Kinetic Energy Interceptors program through the 2008 booster flight 
knowledge point.
    Question. What milestones and testing events need to occur prior to 
announcing an initial operating capability of the ground-based missile 
defense system?
    Answer. Today, the Ballistic Missile Defense System (BMDS) could 
provide a limited defense if called upon as the initial set of 
capabilities necessary to defeat an incoming ballistic missile have 
been fielded and demonstrated. These capabilities are currently in a 
``shakedown period'' under which our crews are gaining valuable 
experience in their operations, and should some threat arise, we could 
transition from a test phase to an operational phase in a matter of 
hours. MDA is working with the warfighters to ensure they are ready to 
operate the system when directed as well developing the capability to 
operate and test the BMDS concurrently.
    A Secretary of Defense decision to put the system on a higher level 
of alert will be based on a number of factors. These factors include: 
the advice he receives from the Combatant Commanders, and other senior 
officials of the Department; our confidence in the operational 
procedures we have developed; demonstrated performance during both 
ground and flight tests; modeling and simulation; and the threat.
    Question. If the third stage rocket motor is removed from the 
ground-based interceptor, can it do boost phase intercept? What would 
its capabilities and characteristics, including size and mobility, be 
in comparison to the Kinetic Energy Interceptor?
    Answer. [Deleted].

          VALUE OF TEST RANGES TO MISSILE DEFENSE AGENCY (MDA)

    Question. White Sands is perhaps the most unique installation in 
all of DOD and, when combined with Fort Bliss (most of which is located 
in New Mexico) and Holloman Air Force Base, it gives the Department a 
highly valuable venue for combining operations and testing.
    Can you describe the value MDA places on its access to an 
installation like White Sands with its enormous geographic size and 
unrestricted airspace?
    Answer. MDA values access an installation like White Sands Missile 
Range (WSMR) for testing of Ballistic Missile Defense (BMDS) elements 
due to its geographic size and airspace. However, WSMR is not well 
suited for MDA test engagements across multiple time-zones which are 
necessary to increase confidence in the whole BMDS. We continue to 
integrate theater and regional missile engagement capabilities into the 
Ballistic Missile Defense System with a strategic engagement capability 
demonstrated for Block 04. With its size and airspace, WSMR will 
contribute to the success of the BMDS in future testing involving 
PATRIOT integrated with Command Control Battle Management and 
Communications (C2BMC) and the Theater High Altitude Area Defense 
system (THAAD). PATRIOT testing is required to assist in maintaining 
the Limited Defensive Capability of the BMDS as well as the development 
of future Blocks of the BMDS.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

          VALUE OF TEST RANGES TO MISSILE DEFENSE AGENCY (MDA)

    Question. Does this access provide the type of realistic testing 
environment needed to collect accurate data for your systems?
    Answer. Yes, at the developmental testing level, but not as much 
for operational testing:
    Airborne Laser (ABL).--WSMR is well suited for firing the laser in 
flight at diagnostic missiles during beam characterization, and for 
some test sorties where active laser operation is not required.
    THAAD.--For ground testing, THAAD will conduct a total of 26 
activities comprised of tests, demonstrations and New Equipment 
Training/Collective Training. These activities will exercise the 
Launcher, Radar, and Fire Control and Communication components of the 
THAAD element, at WSMR and other ranges, from 2007 through 2011.
    PATRIOT Advanced Capability (PAC)-3.--In fiscal year 2007 and 
fiscal year 2008 there will be a total of two BMDS tests that use the 
Army's PATRIOT tests at WSMR. The first test, set for the second 
quarter fiscal year 2007, will bring C2BMC and THAAD Hardware-In-the-
Loop (HWIL) to exercise the latest PATRIOT and C2BMC software. MDA will 
collect data on communications between THAAD and PATRIOT and will test 
PATRIOT's ability to receive C2BMC engagement-coordination direction. 
For the second test, set for the first quarter fiscal year 2008, MDA 
will bring C2BMC and THAAD HWIL to the PAC-2 Guidance Enhancement 
Missile (GEM) P6X-2 test to accomplish the same objectives. It should 
be noted that the Army will be conducting PATRIOT tests at WSMR in 
addition to MDA specific tests.
    Question. How will White Sands contribute to the success of the 
Ballistic Missile Defense System in the future?
    Answer. In Block 06 and beyond, the MDA has planned engagement 
sequences that include THAAD engagement on its X-band radars and on 
system-level tracks. The WSMR flight campaigns will contribute to 
proving key functionality and interfaces as the BMDS extends to 
integrated, layered, worldwide-defensive capabilities. Accordingly, the 
MDA testing program includes THAAD flight tests and Patriot flight 
tests to demonstrate early interoperability, then integration with the 
BMDS. The C2BMC element will participate in these flight tests to 
demonstrate the situational awareness and planning functions that are 
needed to conduct regional missile defense operations.
    Question. A range-wide environmental impact statement has not been 
completed for WSMR in more than ten years. Would the Missile Defense 
Agency benefit from such an EIS?
    Answer. A decision to conduct a range wide EIS at the Army's White 
Sands Missile Range would be made by the Army and White Sands Missile 
Range, and any value to the Missile Defense Agency would be indirect. 
The Missile Defense Agency (MDA) coordinates test planning at White 
Sands Missile Range with the Army, and as new missile tests are 
identified to meet our testing goals, and as the proponent of those 
tests, the Missile Defense Agency would initiate the necessary level of 
compliance with the National Environmental Policy Act for the specific 
action. Current planned Missile Defense Agency testing at White Sands 
Missile Range is compliant with the National Environmental Policy Act.
    Question. What does the Missile Defense Agency need from White 
Sands Missile Range and New Mexico?
    Answer. THAAD returned to flight testing in 2005, and the second 
flight test of five at WSMR occurred on May 11, 2006. The THAAD program 
currently plans to conduct three additional flight tests at WSMR over 
the rest of this year and into fiscal year 2007 before moving future 
testing to the Pacific Missile Range Facility (PMRF) at Barking Sands, 
HI, where we can conduct tests of more challenging engagement 
scenarios.
    WSMR provides support for many other MDA flight tests via our 
Pacific Range Support Teams (PRST) which are teams composed of staff 
from multiple DOD ranges to support broad ocean area tests, and to 
specific MDA dedicated mobile test assets. We need the WSMR team to 
continue their outstanding support of our MDA PRST, providing critical 
mobile equipment and expertise to remote locations around the Pacific. 
While the WSMR geography seems substantial for tactical systems, MDA 
systems must demonstrate their capabilities on both a broader theater 
and global scale. This large-scale testing will require us to use large 
areas within the Pacific oceans.
    MDA and DOD continually seek more commonality of testing processes 
and tools across the Major Ranges and Test Facility Base, to enable 
more efficient and flexible testing in the future. WSMR's continued 
support of these activities is crucial.
    The C2BMC element participates in THAAD and PATRIOT testing from 
WSMR to achieve early demonstrations of element interconnectivity and 
data message transfer during live fire events. This interconnectivity 
testing is made easy by WSMR's SIPRNET on-range connectivity and ease 
of set-up and troubleshooting.
    MDA's programs take advantage of a substantial amount of 
infrastructure and technical expertise from across New Mexico. Some of 
the other areas include: Holloman High Speed Test Track and WSMR for 
lethality and survivability testing; Kirtland Air Force Research Labs 
and the ABL program office support to our Directed Energy activities; 
and Sandia National Labs for support to our FT targets, threat 
analyses, survivability, among others.
                                 ______
                                 
       Questions Submitted to Lieutenant General Larry J. Dodgen
               Questions Submitted by Senator Ted Stevens

                    BALLISTIC MISSILE DEFENSE SYSTEM

    Question. Given that the system spans multiple departments, 
commands and areas of responsibility, can you describe the current 
operational control of the system? Is the system currently on alert, if 
not when do you project that it will be?
    Answer. The operational control of current Ballistic Missile 
Defense System (BMDS) begins with the Secretary of Defense (SECDEF) who 
retains direct control of the current capabilities. These capabilities 
are in a Research, Development, Test and Evaluation (RDT&E) status 
managed by the Missile Defense Agency (MDA). However, in an emergency, 
operational capabilities are available today and upon direction from 
the SECDEF, control transitions to an operational status. The 
operational control is executed by a combination of Geographic 
Combatant Commanders (GCCs), e.g. Commander STRATCOM, Commander 
NORTHCOM, and Commander PACOM. Control processes have been vetted by 
the GCCs in readiness exercises that verified necessary warfighter 
tactics, techniques and procedures to operate the system. MDA and GCCs 
continue to add capability to BMDS that remain in an RDT&E status until 
the SECDEF decides to place all or parts of the BMDS into a 24/7/365 
mode of operation.
    Question. I understand the 2007 budget cut the advanced procurement 
for the second aircraft. The airborne laser program calls for a fleet 
of modified 747 aircraft. How comfortable are you with the overall 
concept of operations provided the laser's range, aircraft on station 
time and deployment options?
    Answer. The Ballistic Missile Defense Concept of Operations has 
been vetted during developer (Missile Defense Agency) and warfighter 
(Geographic Combatant Commanders) exercises. In many of these 
exercises, use of current simulation resources to depict Airborne Laser 
(ABL) capabilities as part of the larger Ballistic Missile Defense 
System (BMDS) is exercised. Operator's tactics, techniques and 
procedures are refined as we learn more about how each element and 
component of the BMDS interacts in a dynamic, operational context over 
a range of potential adversarial operations. Once ABL technology and 
potential deployment advances, we will be able to better assess the 
state of ABL's concept of operations within the overall BMDS.
    Question. Operationally, to meet the current ballistic missile 
threat, are you comfortable with the number of interceptors, 
surveillance assets, and capabilities at your disposal? When will the 
Sea Based X-Band Radar transition to operational status, and who will 
operate it?
    Answer. As you are aware, the system continues to evolve within the 
Research, Development, Test and Evaluation (RDT&E) arena but, if 
necessary, it can provide an operational capability now. While we now 
have an operational capability, continuous assessments indicate that we 
need both present as well as programmed assets to defeat the evolving 
ballistic missile threat. Provided that planned assets are fielded, I 
am comfortable that the Nation will possess an effective global missile 
defense system. The Sea Based X-band radar (SBX) continues to undergo a 
series of sea trials and sensor calibration activities prior to moving 
to its area of operations later this year. Currently, the SBX is 
operated by a combination of Missile Defense Agency (MDA) provided 
contractors and security personnel. Negotiations are continuing with 
the Services to ensure long-term operations of the SBX.
    Question. Given uncertainty in the international community to 
support our missile defense efforts, what are the risks to the forward 
deployment concept?
    Answer. Capabilities of the Ballistic Missile Defense System (BMDS) 
remain in a Research, Development, Test and Evaluation (RDT&E) status 
under direct control of the Secretary of Defense. Limited, rudimentary 
capabilities are spread over a number of geographic areas that include 
the domains of friends and allies who are forthcoming in support of our 
forward deployment needs. To date, it appears there is a legitimate 
interest by additional friendly and allied entities to provide support 
necessary for stationing and operation of additional deployable 
elements and components and therefore, greatly mitigate any risks there 
may be. In fact, as countries like North Korea and Iran continue to 
develop and market ballistic missiles, there is a corresponding 
increase in international support for missile defense. Many elements 
and components are rapidly deployable from friendly and allied 
operating areas serving as forward basing for support and sustainment 
of BMD assets in adjacent operating areas. Sea and airborne BMDS 
elements and components are rapidly relocated to compensate for any 
loss of any ground stationing issues that may arise in any particular 
scenario. In addition, many friends and allies continue to make their 
own BMDS asset contributions fully integrating regional BMD 
architecture.

                          SUBCOMMITTEE RECESS

    Senator Stevens. We will stand in recess until Wednesday, 
May 17, when we will hear testimony from the Secretary of 
Defense and the Chairman of the Joint Chiefs.
    Thank you very much, gentlemen.
    [Whereupon, at 11:05 a.m., Wednesday, May 10, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
May 17.]

</pre></body></html>
